<html>
<title> - THE ROLE OF NON-PROFIT ORGANIZATIONS IN STATE AND LOCAL HIGH SCHOOL REFORM EFFORTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  THE ROLE OF NON-PROFIT ORGANIZATIONS IN STATE AND LOCAL HIGH SCHOOL 
                             REFORM EFFORTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              June 9, 2005

                               __________

                           Serial No. 109-21

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-648                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Vernon J. Ehlers, Michigan           Robert E. Andrews, New Jersey
Judy Biggert, Illinois               Robert C. ``Bobby'' Scott, 
Todd Russell Platts, Pennsylvania        Virginia
Ric Keller, Florida                  Ruben Hinojosa, Texas
Joe Wilson, South Carolina           Ron Kind, Wisconsin
Marilyn N. Musgrave, Colorado        Dennis J. Kucinich, Ohio
Bobby Jindal, Louisiana              Susan A. Davis, California
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 9, 2005.....................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     3
    Miller, Hon. George, Ranking Member, Committee on Education 
      and the Workforce..........................................     4
    Woolsey, Hon. Lynn C., Ranking Member, Subcommittee on 
      Education Reform, Committee on Education and the Workforce.     3

Statement of Witnesses:
    Henriquez, Andres, Program Officer, Education Division, 
      Carnegie Corporation of New York, New York, NY.............    16
        Prepared statement of....................................    18
    Howard, Deborah, Program Director, School Improvement, 
      KnowledgeWorks Foundation, Cincinnati, OH..................    10
        Prepared statement of....................................    12
    Vander Ark, Tom, Executive Director, Education, The Bill and 
      Melinda Gates Foundation, Seattle, WA......................     5
        Prepared statement of....................................     8



  THE ROLE OF NON-PROFIT ORGANIZATIONS IN STATE AND LOCAL HIGH SCHOOL 
                             REFORM EFFORTS

                              ----------                              


                         Thursday, June 9, 2005

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Michael N. 
Castle, [Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Ehlers, Osborne, Kuhl, 
Woolsey, Scott, Hinojosa, and Davis of California.
    Ex officio present: Representative Miller.
    Also present: Representative Fattah.
    Staff Present: Amanda Farris, Professional Staff Member; 
Kevin Frank, Professional Staff Member; Lucy House, Legislative 
Assistant; Alexa Marrero, Press Secretary; Krisann Pearce, 
Deputy Director of Education and Human Resources Policy; 
Deborah L. Samantar, Committee Clerk/Intern Coordinator; Alice 
Cain, Minority Legislative Associate/Education; Lloyd Horwich, 
Minority Legislative Associate; Ricardo Martinez, Minority 
Legislative Associate; Joe Novotny, Minority Legislative 
Assistant.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Chairman Castle. The forum for the Committee on Education 
and the Workforce will come to order.
    We're meeting today to hear testimony on The Role of Non-
Profit Organizations in State and Local High School Reform 
Efforts.
    I want to get to our witnesses today, so I am going to 
limit statements to the Chairman and the Ranking Minority 
Member of the Subcommittee. I would also like to welcome the 
distinguished Ranking Member of the Full Committee, Mr. Miller 
to the hearing and invite him to make a statement.
    Therefore, if other members have statements they will be 
included in the hearing record. With that I ask the unanimous 
consent for the hearing record to remain open for fourteen days 
to allow members' statements and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    Without objection, so ordered.
    Today marks the second in a series of hearings our 
Committee will hold to examine the status of secondary 
education and what efforts are currently being made to 
strengthen high schools across the country. This Committee 
recently heard from Governors Romney and Vilsack about high 
school reform efforts in their states. Today, we will hear from 
three nonprofit organizations about the partnerships they have 
across the country, and the innovative ways in which they are 
driving change in our high schools.
    High school reform is surfacing as a necessity. This is, in 
large part, due to recent research that indicates:
    One quarter of America's high school students read below 
basic levels;
    America's 15-year-olds performed below the international 
average in mathematics, literacy and problem solving, placing 
27th out of 39 countries;
    30 percent of students do not graduate from high school;
    And 50 percent of African-American and Hispanic students do 
not graduate.
    These are unacceptable statistics, and resemble what we saw 
in our elementary schools leading to the enactment of No Child 
Left Behind. High school is no longer about simply moving 
students from ninth grade to graduation. We now must ensure all 
students are leaving their secondary education with the skills 
necessary to reach their next goal. Whether that goal is 
college, the military, or to enter the workforce does not 
matter. All students now need the basic skills to excel.
    A recent study by the Education Commission on the States 
suggest that most high school students expect to graduate from 
college. The study also shows, however, that only about half of 
the students take a rigorous academic program, and that few can 
perform anything but relatively simple tasks in mathematics and 
reading.
    The importance of having a post-secondary degree is 
resonating with our high school students. To me, this is good 
news, but we have to make sure we are getting it right in high 
school. For example, students need to realize that the senior 
year is still an academic year, and the schools should seek to 
eliminate student apathy once students have gain admittance 
into their next endeavor.
    I am sure that every person in this room has heard me say 
more than once that I am an advocate on behalf of No Child Left 
Behind. It is the right thing to do, and is making significant 
headway in closing the achievement gap. I commend the 
President, the National Governor's Association, local school 
districts, and nonprofit organizations for recognizing we now 
need to address our nation's high schools. I am not yet sure if 
there is a Federal role, or what that role should be, but I 
continue to be committed to learning more and doing whatever I 
can to make this part of the education reform dialog.
    I thank you all for being here and look forward to hearing 
from our witnesses.
    Chairman Castle. I now yield to the gentlelady from 
California, the Ranking Minority Member of the Subcommittee, 
Ms. Woolsey.
    [The prepared statement of Chairman Castle follows:]

    Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Today marks the second in a series of hearings our Committee will 
hold to examine the status of secondary education and what efforts are 
currently being made to strengthen high schools across the country. 
This Committee recently heard from Governors Romney and Vilsack about 
high school reform efforts in their states. Today, we will hear from 
three non-profit organizations about the partnerships they have across 
the country, and the innovative ways in which they are driving change 
in our high schools.
    High school reform is surfacing as a necessity. This is, in large 
part, due to recent research that indicates:
         One quarter of America's high school students read below basic 
        levels;
         America's 15-year-olds performed below the international 
        average in mathematics literacy and problem-solving, placing 
        27th out of 39 countries;
         30% of students do not graduate from high school; and
         50% of African-American and Hispanic students do not graduate.
    These are unacceptable statistics, and resemble what we saw in our 
elementary schools leading to the enactment of No Child Left Behind. 
High school is no longer about simply moving students from ninth grade 
to graduation. We now must ensure all students are leaving their 
secondary education with the skills necessary to reach their next goal. 
Whether that goal is college, the military, or to enter the workforce 
does not matter--all students now need the basic skills to excel.
    A recent study by the Education Commission on the States suggests 
that most high school students expect to graduate from college. The 
study also shows, however, that only about half of these students take 
a rigorous academic program, and that few can perform anything but 
relatively simple tasks in mathematics and reading. The importance of 
having a postsecondary degree is resonating with our high school 
students. To me, this is good news, but we have to make sure we are 
getting it right in high school. For example, students need to realize 
that the senior year is still an academic year, and schools should seek 
to eliminate student apathy once students have gained admittance into 
their next endeavor.
    I am sure that every person in this room has heard me say more than 
once that I am an advocate on behalf of No Child Left Behind. It is the 
right thing to do, and is making significant headway in closing the 
achievement gap. I commend the President, the National Governors 
Association, local school districts, and non-profit organizations for 
recognizing we now need to address our nation's high schools. I am not 
yet sure if there is a federal role, or what that role would be, but 
continue to be committed to learning more and doing whatever I can to 
make this part of the education reform dialogue.
    I thank you all for being here, and look forward to hearing from 
our witnesses.
                                 ______
                                 

STATEMENT OF HON. LYNN C. WOOLSEY, RANKING MEMBER, SUBCOMMITTEE 
 ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman and thank you for 
today's hearing, and thank you witnesses for being here. I am 
anxious to hear from you.
    High school reform has not been a really hot topic in 
Washington, but it's something that the Congress is looking at 
becoming more involved in, because of the future of these young 
people, and the future of our nation with this new economy--
knowledge economy that we have to be ready for.
    So while we're thinking about whether and how, and when, 
and why to get more involved, it's really important that we 
hear from people like yourselves that have been seriously 
considering these issues certainly before today.
    Last month the Full Committee heard from both Democratic 
and Republican Governors. Today we're going to hear from the 
foundations that have been in the front lines of high school 
reform. And as we move forward, I am hoping that we will have 
the opportunity to hear from school administrators, teachers, 
parents and certainly students about their experiences. There 
isn't any doubt in my mind, and certainly this Committee's, 
that this is a critical issue.
    And we'll hear today, of course, that of every 100 students 
who enter high school about 70 will graduate, and the numbers 
are so much lower for minority students. Of those 70, about 40 
will go on to college, and many of them will require remedial 
help when they get to college. And only about 20 of the 
original hundred will complete college in 6 years or fewer.
    That may have been good enough during the industrial age 
when most workers needed only basic skills and a basic 
understanding of citizenship to get a good job and participate 
in the political process. But today, that is not good enough, 
because we have a knowledge economy, and we have to have our 
children and our students ready to participate in it.
    In a recent article, ``It's a Flat World After All'', a 
book authored by New York Times' Thomas Friedman, he explained 
that America's historical economic advantages have disappeared 
now that the world is flat, and anyone with smarts, access to 
Google, and a cheap wireless laptop can join the innovation 
fray.
    Mr. Friedman and others have remedies that they believe 
will attract more young women and men to science and 
engineering. But it will be impossible for our country to 
continue to lead the world in innovation if our high school 
system is not among the best in the world. That's why I'm 
looking forward to hearing from all of you.
    Oh, I should say that Mr. Hendricks--Henriquez. I'm really 
sorry.
    Mr. Henriquez. Henriquez.
    Ms. Woolsey. Henriquez, thank you--is here from Sir Francis 
Drake--what? Oh, he mentioned Sir Francis Drake High School in 
his remarks, which I really appreciate. That's a school that we 
all admire in my district. So thank you for being here.
    Chairman Castle. Thank you, Ms. Woolsey. Thank you Ms. 
Woolsey. I will now yield to the distinguished Ranking Minority 
Member of the Full Committee, Mr. Miller, for the purpose of 
making an opening statement.

 STATEMENT OF HON. GEORGE MILLER, RANKING MEMBER, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Mr. Miller. Thank you very much, Mr. Chairman and thank you 
so much for this hearing, and Ms. Woolsey for this hearing. And 
I share all of the concerns that you have both echoed about the 
performance and the future purpose of high school.
    But I'm really here because I am very excited about the 
partnership between the Governors and the nonprofit sectors, in 
terms of developing true laboratories for consideration on how 
we might reshape the educational experience of our high school 
students. How we might make it better connected to the 
workplace, to their educational future, and the idea that we 
have this kind of public and private partnership really 
developing a roadmap for the Congress over the next couple of 
years, I think, is very, very valuable.
    I am working on and hope to be able, at some point, to 
convince the Congress that we should put in some matching 
money, that we should in fact encourage more of this effort. So 
that when we do make a decision about it, and I believe there 
will be a Federal role to play, that it will be an informed 
role, it will be based upon the best evidence available. We can 
shorten that timeframe in terms of our involvement in an 
effective way and the outcomes that we all desire, given the 
current status of high schools and achievements--the gaps that 
remain.
    So I look forward to the testimony. Thank you Mr. Chairman 
so much, for this hearing.
    Chairman Castle. Thank you, Mr. Miller. We have a very 
distinguished panel of witnesses before us today, and I thank 
each of you for coming today. I'll go across and introduce each 
of you and then we'll have your statements.
    Tom Vander Ark is the Executive Director for the Bill and 
Melinda Gates Foundation's Education Initiatives. He is 
responsible for the development and administration of the 
foundation's education grant and scholarship programs. For 5 
years prior to joining the Gates foundation, Mr. Vander Ark 
served as a public school superintendent, Fedaway Public 
Schools, one of Washington state's larger districts. He is one 
of the first superintendents in the Nation to be recruited from 
the private sector to lead a public school district.
    Mrs. Deborah Howard serves as a Program Director of School 
Improvement at the Knowledge Works Foundation. As program 
director she is a designer and day-to-day manager of the 
Foundation's $50 million-plus high school improvement efforts, 
the Ohio High School Transformation Initiative and the Early 
College High School Initiative. Prior to her current position, 
Mrs. Howard established an education consulting firm called 
Principal Results, Inc. in Independence, Ohio.
    Mr. Andres Henriquez serves as Program Officer of the 
Education Division of the Carnegie Corporation of New York. Mr. 
Henriquez works on a wide variety of education issues with a 
special emphasis on intermediate and adolescent literacy. He is 
also a certified teacher who taught for 5 years in a public 
elementary school in East Harlem.
    We thank all of you very much for being here. You probably 
know the sequence of events. You each have 5 minutes to make 
your presentation. If lights, I think it's green for four, and 
yellow for one, and thereafter red. And we will go through each 
of you, and then we will take turns in 5-minute exchanges 
coming from the various members up here.
    Mr. Vander Ark, you're the lead-off hitter.

STATEMENT OF TOM VANDER ARK, EXECUTIVE DIRECTOR, EDUCATION, THE 
         BILL AND MELINDA GATES FOUNDATION, SEATTLE, WA

    Mr. Vander Ark. Chairman Castle and Ranking Member Woolsey, 
members of the Subcommittee, it's a pleasure to be with you. 
It's an honor to be here with my friends from the Carnegie 
Foundation and the Knowledge Works Foundation.
    I found the opening remarks quite remarkable. We wouldn't 
have been having this conversation 5 years ago. It was 5 years 
ago that I went to my high school--my daughter's high school 
graduation. She went to high school where I was a school 
superintendent.
    So it was the first time that I sat in the audience for 
graduation rather than sitting up front in one of those robes. 
As I watched her and her colleagues walk in, I thought there's 
not enough of them there. And I pulled out the program and I 
counted and there were only 400 kids. But I knew that the two 
junior highs in our district had 300 kids each in the ninth 
grade class. And for the hour and a half of my daughter's 
graduation I thought we are or the other 200 kids. What 
happened to those kids? Kids on my watch as superintendent, 
that dropped out.
    So what should have been one of the best days in my life 
was--was a painful reckoning with the fact that kids in my 
district, an inner ring suburb of both Seattle and Tacoma, we 
lose a third of our kids and almost half of the African-
American and Hispanic kids. If you let that sink in, and you 
think about what that means for our future, for our economy, 
for our civil society, it's a scary statistic.
    What we didn't know until four or 5 years ago was that that 
is true nationwide. Our friends at the Manhattan Institute and 
the Urban Institute have both confirmed that the statistics 
that the Chairman and the ranking member pointed out at the 
beginning, it's an appalling problem that we simply haven't had 
the data. That's a positive way of putting it. The other way of 
putting it is that we've been lying to each other for decades 
about how many kids really leave school and under what 
conditions. So it's a difficult problem.
    But we're working on it because we think it's the most 
important problem in American education. This not to say that 
is more important than early literacy. We understand that 
there's nothing better than, nothing more important than early 
start. K-8 improvement in this country is vitally important, 
but it is not enough. We have to make sure that every student 
has access to really high-quality high schools that prepare 
them for college and work and citizenship.
    So it's difficult problem, but like Representative Miller, 
I'm really excited about several developments. I would like to 
mention a couple. One is that when I visit a school like 
Frederick Douglass Academy in Harlem, or the new College Board 
school in the projects in the South Bronx, or when I go to 
Wilson Prep, it's outside of Oakland, here's the statistic that 
I think about when I'm in those schools.
    Kids in those neighborhoods today have a five or 6 percent 
chance of finishing a college degree. You're from a low income 
family and you're a minority, there is a five or 6 percent 
chance that you're going to finish a college degree.
    When I walk into those schools and see the kids at each of 
those schools, they have a 60 or 70 percent chance of finishing 
a college degree. A powerful school can make a big difference 
in the lives of low income kids. And as many noted authors have 
pointed out, there are many challenges outside of school that 
we also need to deal with. But a powerful school can have an 
extremely--can make a big difference in a student's life.
    So I'm excited about the progress that we're making in new 
school development. We have helped to fund over 800 new schools 
and 42 states around the country. I am also, as Representative 
Miller put it, I am very excited about the progress that is 
being made at the state level. I think at least in part because 
of the National Governors Association Summit, and the parallel 
work done by Achieve over the last few years, that over half of 
the states will make significant progress in their policy and 
data sets toward helping more students graduate from high 
school, ready for college.
    I'm encouraged, but also challenged, by our work with 
existing high schools. The big lesson learned in 5 years and 
hundreds of millions of dollars, is that it is very, very 
difficult to turn around a large struggling urban high school. 
I am encouraged, however, by the public-private partnerships 
that are being created with the foundations represented here 
and with cities all over the country. I know that you would 
enjoy the testimony that you'll hear about those partnerships.
    I would like to conclude with five very specific pieces of 
advice about the Federal role toward helping more students in 
America graduate ready for college, work and citizenship.
    The first is to lend your support to the post-Summit 
activities that the National Governors Association is leading. 
NGA is pleased to receive over 30 grant applications this 
month. That's an exciting response, and indicative of the 
momentum and the opportunity that exists. I very much encourage 
you to support that effort.
    Second would be to provide continued support for the 
development of state and local data systems. The state of data 
systems in education today is still pathetic. It is very 
difficult to know very basic information about students. I am 
very encouraged by the Secretary and Assistant Secretary's 
attention to this issue, and know that there are very promising 
opportunities for public-private partnerships in this area.
    The third and related area would be would just to help us 
pick a graduation rate, a definition of a graduation rate. As 
simple as that sounds, it's a complicated calculation and many 
states use different rates that inhibit our ability to just 
track student performance, school performance, and then to 
compare state to state. And there is a Federal role in helping 
us just define the common rate.
    No. 4 is intervening in struggling schools. I think this 
will be the biggest issue that states would deal with in the 
next 5 years, as the growing number of identify struggling 
schools continues to mount. It's going to take big public-
private partnerships to help turn around the struggling 
schools.
    And finally, I think there's a role for the Federal 
Government to create public-private partnerships to fund the 
development of exciting new school options. Math and science 
schools. The College Board is developing its exciting Advanced 
Placement Schools grades six through 12 where all students 
leave with some college credit. Early College High Schools, 
Debbie will mention, where students have the opportunity to 
leave high school with an associate degree. So there is 
exciting new school opportunities.
    And finally, I just want to say thank you to the Committee 
leadership. We appreciate the attention that Congress and the 
Secretary and the White House are paying to this important 
issue. We appreciate the opportunity to testify today.
    [The prepared statement of Mr. Vander Ark follows:]

 Statement of Tom Vander Ark, Executive Director, Education, The Bill 
               and Melinda Gates Foundation, Seattle, WA

I. Introduction
    Chairman Castle, Ranking Member Woolsey, and members of the 
Subcommittee, thank you for the opportunity to testify today on this 
vital issue of redesigning the American high school. I am pleased to be 
here to brief you on the work of the Gates Foundation and other non-
profit organizations, and to provide some thoughts on what further 
actions are needed at all levels of government.

II. The Problem: The High Schools of Today are Obsolete
    As Bill Gates recently said to our nation's governors and business 
leaders, America's high schools are obsolete. They were designed for 
the 20th century's industrial-age economy, when relatively few students 
needed the kind of higher-order knowledge and skills necessary to 
succeed in college. Of 100 ninth graders entering high school today, 
fewer than 70 will graduate, approximately 40 will go directly to 
college, with only just over 30 prepared for college, and fewer than 20 
will graduate from college within six years. These numbers are even 
lower for poor and minority students. And this underperformance is 
reflected in international comparisons. One recent study, for example, 
places the United States 24th out of 29 of the most developed (OECD) 
nations in terms of math literacy among (15-year old) high school 
students.

III. The Vision--Redesigning the American High School with a Range of 
        Options and College-Ready Expectations
    If the United States is going to continue to lead the world 
economically, and if every child is going to have the opportunity to 
rise to his or her potential, then we must fundamentally redesign our 
high schools to prepare all students for the 21st century. The high 
school of tomorrow must be build around the new three Rs of rigor, 
relevance, and relationships to focus on the needs of each individual 
student--using data and providing a range of options to ensure that 
every student graduates with the knowledge and skills necessary for 
college, work, and citizenship.

IV. The Role of the Gates Foundation
    The Gates Foundation was conceived out of a desire to advance 
equity around the world--to help make sure that, no matter where a 
person is born, he or she has the chance to live a healthy, productive 
life. With the belief that our support should spur innovation to find 
solutions that will continue working long after our grant making has 
ended, we look for places where every dollar invested and each hour 
expended can make the biggest impact. This approach has led us to work 
in two main areas: Around the world, we invest in health, because 
millions of people in developing countries die every year from diseases 
that have been virtually eliminated in the rich world. And here in the 
United States, we believe we can do the most to promote equity through 
education.
    The Gates Foundation believes in the importance of improving 
education at all levels--from early childhood education to college and 
beyond. But our focus is on strengthening the American high schools 
because evidence shows that performance in early grades is often not 
sustained in later grades, because high schools represent a vital link 
between primary education and the demands and opportunities of the 21st 
century, and because high schools are often the weakest link in our 
education pipeline rather than a seamless link between K-12 and higher 
education.
    To date, the Gates Foundation has invested approximately $1 billion 
over the last five years to help spur innovation and focus our nation 
on the goal of ensuring that all students graduate from high school 
ready for college, work, and citizenship. The foundation has supported 
over 1500 schools in 41 states. Most of our school-level grantmaking 
has focused on new school creation and improvement of existing schools. 
New school creation can provide quality options for underserved 
communities, replace failing schools, or build on community assets. 
While many foundation-sponsored new schools are still young, the 
results are promising. Students have demonstrated high levels of 
engagement (high attendance and retention rates), teachers and leaders 
have built a school-based culture that supports high expectations 
(emphasis on college preparatory curriculum for all students), and 
schools have achieved good results (relatively strong test scores and 
graduation rates). A handful of these schools have also been able to 
scale effectively--that is, grow a single high performing school into a 
network of consistently high performing schools. From them we have 
learned that any new school strategy designed to increase the supply of 
quality options must include a clearly articulated school model and 
strong support systems. Schools that have posted the largest gains in 
both attainment and achievement have benefited from a well-structured 
reform model paired with strong technical assistance.

IV. Key National Activities and Elements of High School and System 
        Redesign
    I am pleased to say that, over the last year in particular, a 
strong national consensus has emerged regarding the need to transform 
America's high schools. For example, the National Governors Association 
has made high school reform a top priority, and at the federal level 
President Bush has made high school reform the centerpiece of his 
second term education agenda.
    The Gates Foundation was proud to sponsor the NGA-Achieve 2005 
National Education Summit on High School earlier this year, at which 
many of our nation's governors along with national leaders from 
business, education, philanthropy, and more came together to discuss 
and commit to the vital issue of high school redesign. Among other 
things, the Summit included publication of an Action Agenda that 
outlines many of the broad policy areas that should be the focus of 
high school redesign efforts, including:
    <bullet>  Aligning high school standards, curriculum, and 
assessments with college and work expectations;
    <bullet>  Providing a range of high school options and 
interventions that can support the needs of individual students;
    <bullet>  Preparing teachers and professionals to achieve college-
ready expectations;
    <bullet>  Promoting meaningful use of data along with valid and 
reliable models for high school accountability; and
    <bullet>  Streamlining education governance to create a more 
seamless education pipeline.
    Following the Summit, NGA has announced a new grant program for 
states, funded by the Gates Foundation and others, that is designed to 
help states move strategically through the long-term process of high 
school redesign. Over the last two months, a vast majority of states 
have brought together multidisciplinary teams of leaders, committed to 
the goal of all students graduating from high school ready for college 
and work, worked through a comprehensive blueprint for developing their 
high school redesign plans, and applied for the NGA grants. And we 
expect that NGA will announce ten or more states as grant recipients 
next month.

V. Lessons Learned from High School Redesign
    Though much work remains to be done, there is a lot we have learned 
from our research, evaluation, and experiences regarding what it takes 
to transform the American high school and ensure that all students 
graduate ready for college, work, and citizenship. And we have 
promising examples of real world results in high schools that have 
undergone fundamental change.
    Among the core lessons we have learned are the following related 
points:
    <bullet>  Successful high school redesign requires systemic changes 
at both the policy level and in practice. This requires a careful 
balance between a consistent, across-the-board commitment to college-
ready standards, curriculum, and expectations (for example) along with 
a flexible range of options to focus on what is most effective for each 
student and in different contexts.
    <bullet>  Successful high school redesign promotes a focus on 
individual students, based on the new three Rs of rigor, relevance, and 
relationships. And this kind of effort is often most efficient and 
effective in the context of new high schools that are built from the 
start with a focus on this purpose and structure.
    <bullet>  Successful high school redesign depends on a coordinated, 
long-term approach to fundamentally restructure the high school; add-on 
programs are not likely to be enough. The NGA post-Summit grants, for 
example, ask states to take immediate action as part of a ten-year 
plan.

V. The Federal Role in Promoting Effective High School Redesign
    The moral, economic, and democratic imperative that has called us 
to action in support of high schools and high school students is driven 
by a groundswell of support among both governmental and non-
governmental organizations across the country. And the federal 
government has become an important partner in education reform, 
promoting accountability, providing resources, offering technical 
assistance, and more.
    I applaud Congress and this Subcommittee for taking the time to 
examine this issue that is vital to the individual futures of so many 
children and to the future security and prosperity of our nation. And I 
urge you to consider how the federal government can support the efforts 
that are hopefully approaching a tipping point across the country. In 
that regard, let me make three suggestions:
    First, the federal government should support promising state and 
local efforts with regard to high school redesign, such as those being 
undertaken by states as part of the NGA post-Summit grants and the 
American Diploma Project.
    Second, there are some immediate efforts that Congress should 
consider in light of its pending reauthorizations and as part of 
implementation of current federal law. These include:
    <bullet>  providing continued support for the development of state 
and local data systems that can mark student progress P-16 and foster 
data-driven decision-making;
    <bullet>  promoting more valid and reliable accountability for high 
schools, including more accurate definitions of graduation rates;
    <bullet>  providing assistance to states to build the capacity 
necessary to improve struggling districts and schools; and
    <bullet>  providing increased support for the creation of high 
school choices that will ensure all students have access to high 
quality options, including schools of choice, charter schools, and new 
schools, with a particular focus on math and science high schools.
    Third, Congress should give ample consideration to the President's 
proposed high school reform initiatives as part of its examination of 
this issue, such as the proposed support for individual student 
learning plans and for the establishment of a teacher incentive fund.

VI. Conclusion
    In conclusion, the Gates Foundation believes there is a unique 
window of opportunity to redesign the American high school for the 21st 
century, and it is imperative--for both individual students and our 
nation--that we seize this opportunity and spur change at the local, 
state, and federal levels. We--national non-profit organizations, 
concerned community members, policy makers at all levels, parents, 
educators, and others--cannot afford to let this window of opportunity 
close without drawing upon our common visions, best experiences, and 
lessons learned to ensure that all students have access to high quality 
high schools.
                                 ______
                                 
    Chairman Castle. Thank you Mr. Vander Ark. Ms. Howard.

     STATEMENT OF DEBORAH HOWARD, PROGRAM DIRECTOR, SCHOOL 
     IMPROVEMENT, KNOWLEDGEWORKS FOUNDATION, CINCINNATI, OH

    Ms. Howard. Chairman Castle and Members of the 
Subcommittee, thank you very much for the opportunity. I'm here 
today on behalf of our president, Chad P. Wick, who wanted to 
be with you, but at this moment is receiving an honorary 
doctorate and needed to be there.
    Knowledge Works Foundation is Ohio's largest education 
philanthropy. And I wanted to talk to you today about the scope 
of our work and then how we achieve that work. We act as a 
convener, a funder, a facilitator and a technical assistance 
provider. Our focus often offers cover for innovators and 
reformers on the ground to give them time to really achieve 
their goals. Acting in these roles, Knowledge Works strengthens 
the independent, credible voice for education in Ohio.
    Knowledge Works, as Tom mentioned, has one of the largest 
and most aggressive high school reform efforts in the country. 
We have partnership with the Knowledge Works Foundations, the 
Gates Foundation, the U.S. Department of Education, the Ohio 
Department of Education, the Kellogg Foundation and the Ford 
Foundation. Together all of these partners are investing more 
than 50 million dollars in Ohio's high schools over 5 years. 
Our work touches 25,000 students in some of the state's most 
economically challenged urban and rural districts.
    We have two major initiatives.
    The Ohio High School Transformation Initiative, in which we 
help local communities take existing high school facilities and 
use them in new and more effective ways. In fall of 2004, 58 
new, separate small high schools opened their doors on what 
used to be 17 large low performing urban campuses. Eleven more 
new small schools will open this August.
    The second initiative is Ohio Early College High School 
Initiative. We are actually forming 10 new Early College High 
Schools, which as Tom pointed out help students earn up to 2 
years of college credit or an associate's degree while they are 
earning their high school diploma. Together we believe these 79 
new small schools will really help create a tipping point for 
high school reform in Ohio.
    Because our schools are in their first or second year of 
development we don't yet have a long track record of student 
achievement data. However, the early results are promising. The 
Dayton Early College Academy is located in the state's lowest 
performing urban district. Right before I got on the plane to 
come here yesterday, I learned that 90 percent of the first of 
its classes to take the Ohio graduation test this spring passed 
that test on the first try. That's the lowest performing urban 
district in the state.
    Seventy percent of the students at that school, and 100 
percent of the students at the Lorain Early College High School 
and the Youngstown Early College High School are taking and 
passing college courses in their ninth and 10th grade years. 
These are not cream of the crop, these are students that are 
believed not to be college-going in the traditional setting.
    Initial data covered from the first few months of operation 
in our conversion schools in the Ohio High School 
Transformation Initiative shows some promising evidence. There 
is some improvements in attendance and discipline, and there's 
growing evidence that teachers are making real changes in 
teaching and learning. All of the schools are focused on 
rigorous standards-based curriculum that really connects what's 
learned in the classroom to what happens in the community.
    Here's how we work to achieve results. We just don't give 
grants and walk away. We began by building a coalition of 
state-level leaders that can move policy and resources to 
achieve the goal. We include the Governor's office, the Ohio 
Department of Education, and the heads of the largest education 
associations in the state, for the teacher's unions, the 
administrators and the school boards. Together this group 
allows us to align and integrate multiple funding streams and 
waive administrative policies that get the way of real change. 
We have leadership development for principals. We fund for 
workshops and embedded coaches on the school sites. We have 
separate grants to community organizations and train them and 
grassroots advocacy to sustain the schools. We provide 
leadership development for students so that their voices are 
heard not only in their local schools, but in the statehouse.
    Finally we have a strong system of evaluation and knowledge 
management that points to what is working on the ground, shows 
us the gaps in the design and resources, and then shows the 
value added impact of our work.
    Finally, we also have tough non-negotiable attributes and 
detailed contract that hold the systems with which we work 
accountable for achieving a tough set of benchmarks. Either 
they achieve the benchmarks or they risk losing funding.
    At Knowledge Works Foundation we take very seriously our 
role as the state's largest education philanthropy. As such we 
seek to be a trusted resource and a partner. We help move the 
work further faster. We provide honest, tough, feedback to 
schools and we work with them in literacy, with their ninth 
graders and throughout their high school career. We expect 
results and we are committed to delivering the same.
    Thank you for your attention. I will be happy to provide 
stories and examples from the ground, or to answer any 
questions that you may have.
    [The prepared statement of Ms. Howard follows:]

  Statement of Deborah Howard, Program Director, School Improvement, 
               KnowledgeWorks Foundation, Cincinnati, OH

    Thank you, Chairman Castle and members of the Subcommittee, for 
this opportunity to share KnowledgeWorks Foundation's experiences in 
support of local and statewide high school improvement efforts in Ohio.

Overview of the Foundation
    KnowledgeWorks Foundation is Ohio's largest education philanthropy. 
Created in 1998, KnowledgeWorks is classified as an ``operating 
foundation.'' That means we both award grants and receive funding that 
furthers our work. Our Board and staff believe that education is the 
key to the success of individuals and society. We are dedicated to 
removing barriers to education for all individuals. To achieve that 
goal, we work to create partnerships that will produce measurably 
better educational results throughout the state. The Foundation 
carefully focuses its limited human and financial resources on systemic 
initiatives in where there is a convergence of statewide attention to 
the problem and the will to effect real, lasting change. We believe 
that educational barriers can be eliminated by collaborating with those 
public and private entities across the state and the nation who share 
that goal.
    KnowledgeWorks Foundation acts as a convenor, a facilitator, a 
funder, and a technical assistance provider. Often, our focus on 
accountability offers ``cover'' for the innovators and reformers to 
give them time and space to achieve their goals. Acting in these roles, 
the Foundation strengthens the independent, credible voice for 
education in Ohio; convenes education leaders around their priorities; 
facilitates stakeholder discussions with interests similar to ours; and 
defines and communicates the problem in a way that also advances 
reasonable solutions.

Scope of Our High School Improvement Work
    KnowledgeWorks Foundation's statewide high school initiatives are 
grounded in the belief that learning is ultimately about 
relationships--about making connections between people, places, 
resources and ideas. Through two primary initiatives, the Ohio High 
School Transformation Initiative and the Ohio Early College Network, 
KnowledgeWorks is focused on creating a tipping point for high school 
reform statewide.
    Over a five-year period, KnowledgeWorks Foundation and its 
partners, the Bill & Melinda Gates Foundation, the U.S. Department of 
Education, the Ohio Department of Education, and the Ford Foundation, 
will invest more than $50 million in Ohio's high schools with a three-
pronged goal: 1. To change forever the way in which our high schools 
are designed and operated, moving them from the assembly line, factory 
model to the information age; 2. Dramatically improve student 
achievement at the high school level, preparing them to enter college 
without remediation; and 3. Ignite a firestorm of community involvement 
in the daily lives of the schools that both supports them and holds 
them accountable for achieving results.
    In total, the Ohio High School Transformation Initiative and the 
Ohio Early College Network impact more than 25,000 students in some of 
the state's most economically challenged urban and rural areas.
    Schools and districts involved in the Ohio High School 
Transformation Initiative are using existing high school facilities in 
new and more effective ways. In fall 2004, 58 separate, small high 
schools opened their doors on what used to be 17 large, low-performing 
urban high school campuses. Eleven more new small schools will open in 
August of this year, adding an 18th urban high school community to the 
Ohio High School Transformation Initiative.
    The Ohio Early College Network is helping to break the artificial 
barriers between high school and higher education by developing 10 new 
early college high schools in urban and rural sites across the state
    Our work involves nearly 3,000 educators annually in more than 20 
professional development forums. Skills and information learned at 
these statewide events is then followed by intensive, research-based 
support from 40 seasoned educational and leadership coaches embedded at 
the school sites.
    We've created and support a statewide Small School Leaders Network 
that is helping train some 100 administrators and teachers to be 
effective leaders of these newly-designed schools.
    We award separate grants to support 15 local community 
organizations and train them in strategies for community engagement and 
grassroots advocacy.
    KnowledgeWorks provides leadership training for some 150 students 
statewide to ensure their voices are heard in the design and delivery 
of their education, both at home and in the halls of the statehouse.
    Finally, KnowledgeWorks Foundation invests significant resources in 
evaluation and knowledge management systems that continuously provide 
information on what's working in the field, points to gaps in design or 
support, and assesses the value-added impact of our work.

Early Indicators of Success
    Because our schools are in their first or second year of 
development, we do not yet have trends in student achievement data, 
however, early results are promising.
    The first Early College High School, the Dayton Early College 
Academy, is located in the state's lowest-performing urban district. We 
just learned that 90% of its first class of students to take the Ohio 
Graduation Test this spring passed that test on the first try. Nearly 
70% of the students in the Dayton Early College Academy and up to 100% 
of the students in the Youngstown and Lorain Early College High Schools 
are taking and passing college courses at their partner universities in 
the 9th and 10th grades. These are not the ``cream of the Ohio crop'' 
of students. These are students who traditionally don't view themselves 
as college-bound.
    Initial data from the first few months of operation for the new 
small schools formed through the conversion of existing facilities in 
the Ohio High School Transformation Initiative shows improvements in 
attendance and discipline. Students tell us they believe these changes 
are happening because the small school settings allow teachers to know 
them well, to expect more from them, and to build an individualized 
learning instructional plan that meets their targeted needs. In new 
small schools across the state, students tell us stories of how 
teachers have called their mothers, their fathers, their friends and 
others to track them down when they don't attend school. Teachers and 
principals, they say, expect you to attend school and they do what it 
takes to make that happen.
    There is growing evidence that teaching and learning are improving 
in these high schools. Through a multitude of partnerships and 
community-based service learning experiences, students and teachers are 
beginning to make connections between what happens in the classroom and 
life after high school. Just talk to the Cleveland students whose 
social studies investigation of the neighborhood around their school 
caught the attention of the History Channel and will soon show up as a 
documentary with connections to archaeology, genealogy, science and 
mathematics. Or the students in East Cleveland whose civics class gets 
a firsthand knowledge of our justice system by working with local 
attorneys and judges. Or the students in Dayton and Lorain who, with 
the blessing of their principals, are jointly researching effective 
instructional strategies with a goal of totally redesigning their high 
school curriculum.
    We believe these types of relationships set the stage for high 
levels of student achievement in systems that are focused on a 
rigorous, standards-based curriculum that connects what is learned in 
the classroom with relevant experiences in the community.

The Role of the Foundation
    I spoke earlier of the Foundation as a convenor, a facilitator, a 
funder, and a technical assistance provider. Because we are an agile 
organization, we are able to respond quickly to needs and challenges. 
Our track record engenders trust and respect among our partners. The 
following examples demonstrate how we use those partnerships and 
resources to move innovations further, faster.
    We begin by building a coalition of state-level leaders that can 
move policy and resources to achieve the goal--the Governor's office, 
the Ohio Department of Education, the heads of the major statewide 
education associations of teachers, administrators and boards. 
Together, this group allows us to align and integrate multiple funding 
streams and waive administrative policies that get in the way of 
progress.
    For example, many of the barriers to change identified in our 
statewide initiatives formed the basis for state high school task force 
recommendations to improve achievement. In a matter of months--not 
years--these changes were reflected in the state budget appropriations 
approved just last week.
    In another area, working with the Ohio Department of Education, we 
were able to leverage Comprehensive School Reform dollars for eligible 
participants in the OHSTI, using common grant application, portfolio 
development and reporting processes. Potential grantees were not 
required to go through two different and competing sets of ``red tape'' 
to achieve a single set of goals.
    For both the Ohio High School Transformation Initiative and the 
Ohio Early College Network, schools and districts respond to a request 
for proposals. They choose to work with us to fundamentally redesign 
the high school experience in their communities. When they choose to be 
involved with KnowledgeWorks Foundation, they also agree to meet our 
Non-Negotiable terms and high performance standards, or risk losing 
support. And it's not just a single person choosing to be involved. 
Detailed contracts, with benchmarks and deliverables are established 
for each initiative. These contracts must be signed, not only by the 
school superintendent, but also by the Board President, the university 
president, if applicable, and the President of the teachers union at 
the district and/or union level. And union presidents generally call 
for a literal vote of support of the membership before signing on to 
these initiatives. So from the beginning labor and management must both 
agree to remain at the table, stay committed to the change process and 
work out the details to achieve targeted goals. On many occasions, 
state association presidents sat down side-by-side with KnowledgeWorks 
staff , local union presidents and superintendents to work through 
problems that would have caused a halt to other improvement efforts.
    Our direct grants to community-based organizations ensure they have 
a place at the table when key decisions are made. In addition, these 
grants allow the organization to focus on recruiting community members 
to stay involved in the daily life of the schools, serving on school-
based governance teams, connecting students with internships and 
mentorships, working with teachers to connect the curriculum to real 
world applications, and taking part in performance-based assessment of 
students.
    When data showed that the majority of students in the schools we're 
targeting are entering the 9th grade with reading abilities at least 3-
4 years below grade level, we were able to leverage Foundation funding 
to contract with Kent State University and the Ohio High School 
Alliance to conduct baseline diagnostic testing of more than 3,000 
incoming 9th graders. This data was used to develop statewide training 
for teachers targeted at increasing literacy support in the content 
areas. KnowledgeWorks kicked off the training and assisted ODE in the 
development and piloting of a statewide high school literacy 
development initiative.

Conclusion
    At KnowledgeWorks Foundation we take seriously our role as the 
state's largest education philanthropy. As such, we seek to be a 
trusted source and partner. We help move the reform work further 
faster. We provide honest, tough feedback. We expect results. And we 
are committed to delivering the same.
    Thank you for your attention. I will be happy to answer any 
questions or provide additional information.

Foundation Overview
    Founded in 1998, KnowledgeWorks Foundation is Ohio's largest public 
education philanthropy. Dedicated to removing barriers to higher 
education for all individuals, the Foundation provides funding, 
technical assistance, and other resources to initiatives that improve 
the effectiveness and efficiency of Ohio's public and higher education 
systems.
    To support this goal, we've committed 85 million dollars in grants 
to research-based, education reform initiatives since our inception. We 
strongly believe the reforms we fund show great promise for supporting 
Ohio's education, and ultimately supporting the children and adults who 
are the economic future of Ohio.

Topic Overview
    Our work is grounded in four main areas: High Schools and School 
Improvement; Adult Learning; College Access & Success; and Communities 
& Schools. These areas currently support the following initiatives:
            High Schools and School Improvement
    Initiatives within the High Schools and School Improvement area 
address the challenges and shortcomings of Ohio's public schools, where 
only 7 in 10 students graduate every year. Most of our financial and 
human resources are invested in high schools, although our work also 
supports pre-kindergarten through post-secondary education. Initiatives 
include: The Ohio High School Transformation Initiative (OHSTI); 
Project GRAD Ohio; and Early College.
            Adult Learning
    Initiatives within the Adult Learning area support Ohio's low-wage 
workers, estimated at over 1 million, who have limited opportunities 
for increasing their skills and incomes. These initiatives support 
accessible postsecondary education for all low-wage workers, so they 
can escape poverty through higher-paying jobs. Initiatives include: The 
Ohio Bridges to Opportunity Initiative and Career Pathways.
            College Access & Success
    Initiatives within the College Access & Success area work to ensure 
that every Ohioan has the option of postsecondary education at all 
levels-apprenticeship, certificate, associate's degree, and bachelor's 
degree. Our goal is to grant every Ohioan access to learning beyond 
high school and throughout their lives. Initiatives in this area 
include: Early College; The Ohio Bridges to Opportunity Initiative; 
Ohio College Access Network (OCAN); Achieving the Dream; and Project 
GRAD Ohio.
            Communities & Schools
    The Communities & Schools area is encouraging school districts and 
communities to utilize state and national funding for school 
construction to make school facilities more conducive to learning, and 
more accessible to the entire community. We facilitate partnerships 
between communities and schools, so they can redesign school facilities 
that reflect the community's needs and values. Initiatives in this area 
include: School as Centers of Community and School Facilities.

Our Approach
            Community Engagement--The Key to Healthier Schools
    All of our Foundation program areas support powerful community 
engagement that encourages community members to influence official 
decisions, and share ownership of their public schools. Community 

Engagement
            Public Policy--The Key to Long-term Change
    Our Foundation only supports education reform initiatives that will 
lead to long-term change in the education system. An important part of 
ensuring that change lasts is for the state, federal, and local 
governments to enact legislation that supports and nurtures the change. 
To that end, we identify and advance policy changes that support the 
initiatives we fund. Learn more about our role in public policy within 
High Schools, Adult Learning, College Access & Success, and Communities 
& Schools.
            The KnowledgeWorks Way
    We are unique in our approach to education philanthropy. We 
describe our method in three simple words: ``Fund, Facilitate, and 
Do.''
    <bullet>  By funding initiatives, we are strategically investing 
resources, including time, money, and people, into priority areas.
    <bullet>  By facilitating initiatives, we are bringing together 
people who might not traditionally work collaboratively to discuss 
issues and uncover new solutions.
    <bullet>  By doing some of the work ourselves, we are able to fill 
temporary gaps where there may not be an individual, team or community 
to take on a particular challenge.
            Mission
    KnowledgeWorks Foundation will increase the number and diversity of 
people who value and access education, by creating and improving 
educational opportunity at pre-kindergarten through high school and 
post-high school institutions, and through community organizations.
            History
    KnowledgeWorks Foundation was created in 1998 as a charitable 
foundation through the reorganization of the Student Loan Funding 
Corporation.
            Statistics
    Number of employees: 65
    Endowment: $200 million
    Total grant commitments since inception: $85 million
                                 ______
                                 
    Chairman Castle. Thank you very much, Ms. Howard. We 
appreciate your testimony. We will be back to you shortly. Mr. 
Henriquez.

   STATEMENT OF ANDRES HENRIQUEZ, PROGRAM OFFICER, EDUCATION 
    DIVISION, CARNEGIE CORPORATION OF NEW YORK, NEW YORK, NY

    Mr. Henriquez. Thank you, Mr. Castle. It's good to be here 
in the People's Court, People's House, excuse me.
    I'm going to discuss a little bit about the Carnegie 
Corporation's work in high schools, and some of the work that 
we noticed that we found as we started this high school reform 
work.
    In 2001, Carnegie Corporation of New York in partnership 
with the Bill and Melinda Gates foundation launched Schools for 
a New Society, a 5-year $60 million urban high school reform 
effort, matched with local funds, aimed at promoting systemic 
and district-wide reform in seven cities. The reform efforts 
encourage partnerships and collaborations with community 
including school officials and teachers, parents and students, 
and community stakeholders such as teacher organizations, 
business leaders, elected officials, and higher education 
leaders.
    Initially the corporation invited 20 schools to submit high 
school reform plans, and after an in-depth review by leading 
educators and scholars, the school districts chosen to 
participate in the Schools for a New Society were Boston, 
Chattanooga, Houston, Providence, Sacramento, San Diego, and 
Worcester.
    The key objective is to reform policies and practices that 
help shape teaching and learning in the high schools. And 
through its grant making the Corporation provides resources to 
community organizations with a substantial history of working 
to improve student achievement and workforce preparedness, and 
enabling these organizations to lead and to manage a school and 
district renewal process.
    Critical components to the reform included first holding 
all schools accountable to help every student to meet high 
standards and to prepare for higher education, as well as the 
workforce, and to confront the challenges and opportunities for 
21st-century society.
    Second was to raise graduation requirements to ensure that 
all students take and succeed in rigorous courses.
    The third was to transform these large, impersonal high 
schools into small schools, or really these small learning 
communities and personalize the student learning experience.
    And fourth was to improve teaching through intensive 
professional development, while enabling teachers time to work 
in teams. And again this is to help all students succeed.
    One of the most valuable findings in the very first year of 
Schools for a New Society was the fact that almost half of the 
students entering the ninth grade were reading several years 
below grade level. It became clear to us that no matter what 
kinds outcomes we wanted to achieve from this initiative, 
whether it was higher graduation rates, more students going on 
to college, more students taking advanced placement courses, 
success would be difficult because of these students' low 
literacy skills.
    When we looked at data from the National Assessment of 
Educational Progress, our NAEP data, otherwise known as the 
nation's report card, it became clear to us that adolescent 
literacy was indeed a national problem. It turns out that 70 
percent of our entering ninth graders in the United States can 
be considered as reading below grade level. And these young 
people can neither understand nor engage with text, and they 
represent a substantial proportion of students who are dropping 
out of high schools.
    According to the Alliance for Excellent Education, 3000 
youngsters disappear from our high schools and classrooms every 
day. At the end of this month, at the end of this school year, 
over 540,000 students will have dropped out of our high 
schools, many because of poor literacy skills.
    Of those who do manage to get a diploma, half will be 
unprepared for the demands of higher education in the 
workforce. And according to national data, 53 percent of the 
freshmen in college are receiving remediation to improve their 
reading and writing.
    In a related finding, employers were recently asked whether 
high schools were giving young people appropriate job related 
skills, 41 percent responded somewhat to very dissatisfied, 
with how young people ``read and understood complicated 
material.'' In view of this dire data, the Carnegie Corporation 
of New York established a program called the Advancing Literacy 
Program. This is an initiative that focuses intensively on 
improving the literacy of students in grades 4 through 12.
    Over the last 2 years, we've come to realize that educators 
have pretty well figured out how young people learn to read, 
which has resulted in a very strong K through 3 early reading 
policy in our country. On the other end of the spectrum, there 
has been a focus on adult literacy programs. And in between 
these two extremes of learning to read as children or 
developing reading skills as adults, is what we call the 
forgotten middle. And that's the chasm that includes an 
estimated 8 million students in grades four through 12 who have 
learned to read, but cannot yet read to learn.
    Now it's important to note that these problems are 
exacerbated by poverty, and they are particularly prevalent in 
our poorer urban districts. However the comprehension problem 
is also common in middle-class suburbs, ex-burbs and rural 
areas throughout our country.
    For example, the fourth grade and eighth grades proficiency 
rates on the 2003 NAEP data, only range from 10 to 43 percent 
across states, and the overall proficiency rate for eighth 
graders was only 32 percent. And clearly there are struggling 
readers at every level of our socioeconomic strata.
    The course of work that the Carnegie Corporation has been 
able to draw on a number of recommendations from experts on 
literacy for older children. And although everyone recognizes 
that we have much more to learn, we are convinced that we know 
enough to make a real difference for students in elementary 
grades, middle schools and our high schools.
    For instance, a report that was written to the Carnegie 
Corporation of New York, ``Reading Next--A Vision For Action 
Research in Middle and High School Literacy'' lays out 15 
elements of effective adolescent literacy programs that 
practitioners can and indeed are using to improve student 
achievement in schools across the nation.
    And there has been some Federal response to this crisis. 
The $25 million appropriated by Congress for the Striving 
Readers Initiative for this fiscal year was an important first 
step in helping to make effective literacy and prevention 
programs available to the children who are most in need of 
them. Teachers and parents and reading researchers are eagerly 
awaiting the results of these demonstrations. Given the 
Corporation's long history of advancing educational 
opportunities, we are committed to revitalizing America's high 
schools by focusing on district reform.
    And we believe that in order to prepare all of today's high 
school students to succeed in our complex knowledge-based 
economy, we can't provide them with one or two good high 
schools but must have in place an entire system of excellent 
high schools.
    I would like to conclude with a quote from Dr. Gregorian, 
our President at Carnegie Corporation, who says: ``We will do 
what it takes to ensure that the spectacle of American students 
shutting down and dropping out of high schools at the appalling 
rate of 3000 a day, quickly becomes one of those shameful 
memories in American history that we are all eager to forget.''
    I thank you for your attention.
    [The prepared statement of Mr. Henriquez follows:]

  Statement of Andres Henriquez, Program Officer, Education Division, 
             Carnegie Corporation of New York, New York, NY

        ``Creating high schools for the 21st century is a challenge for 
        education reformers as momentous as building the Panama 
        Canal.''
        Vartan Gregorian, President
        Carnegie Corporation of New York

Overview
    Carnegie Corporation was one of the first foundations concerned 
with early childhood development, care and education from prenatal 
development and care systems through preschool health and education and 
has continued concentrating funding in these areas for over 30 years. 
That history resonates throughout our current work in education, though 
we have tried to sharpen our focus in light of two fundamental 
questions that always bear asking: What are we doing? Why are we doing 
it? Today, the Corporation is making fewer grants and larger 
commitments than in earlier years, and ambitious professional 
evaluation efforts are built into our larger initiatives from the 
start. Therefore, this overview seeks to provide a context for 
understanding how we have arrived at the program strategies we will be 
focusing on in the next few years and which we would like to share with 
the subcommittee.
    It was Carnegie Corporation of New York that helped to create some 
of the nation's most innovative preschool care, education and parenting 
support programs, efforts that included funding for the development and 
initial production of the PBS television series, Sesame Street. The 
foundation also supported projects aimed at demonstrating the 
effectiveness of early education and care and that assisted in the 
training of professionals for the early childhood work force. The 
Corporation encouraged a broader look at social policies that affect 
families with young children, created and sustained the Carnegie 
Council on Children and provided initial support for the Children's 
Defense Fund. The Corporation's work in early childhood education and 
care has been summarized in What Kids Need: Today's Best Ideas for 
Nurturing, Teaching, and Protecting Young Children A Carnegie 
Corporation Initiative: A Decade of Progress in Early Education (Rima 
Shore, Beacon Press: 2002), which describes best the successful early 
childhood programs and implemented practice.
    The Corporation's work in middle school reform was also influential 
in setting an agenda for restructuring schools with greater attention 
to students' developmental needs. The focus of the Carnegie Council on 
Adolescent Development was adolescent health issues and their social-
emotional development, but the Council also concluded that ``the years 
from ten through fourteen are a crucial turning point'' for adolescents 
and that ``this period represents an optimal time for interventions to 
foster education . . .'' The Corporation began its work in middle 
school reform with the Middle Grades Schools State Policy Initiative, 
and, in 1989, published the widely influential report, Turning Points: 
Preparing American Youth for the 21st Century. Since our first foray 
into this work, tens of millions of dollars have been invested by a 
number of other foundations including the Lilly Endowment, Inc. and the 
Edna McConnell Clark and W.K. Kellogg Foundations. In summing up 
Carnegie Corporation's work, middle-school reformer M. Hayes Mizell 
reported, ``We helped to create a consciousness and understanding of 
the need for greater attention to the academic dimension of the middle 
grades.'' Assisted by the collaborative efforts of other foundations 
and by evolving state and local public policy, the Corporation's focus 
on the middle grades moved them front and center into the reform 
agenda, and the number of middle schools soared. Middle school 
reformers are now beginning to focus heavily on issues of literacy.
    Throughout the history of Carnegie Corporation, its presidents have 
been engaged with literacy. Andrew Carnegie's legacy includes over 2000 
free public libraries that he saw as a link ``bridging ignorance and 
education.'' Access to books and the explicit teaching of reading are 
two ways in which literacy is fostered. From the 1930's to the 1960's 
reading was increasingly taught through methods that concentrated on 
``whole words'' (or whole language), using sentences and stories that 
were closely geared to children's interests. Surprisingly, the teaching 
of reading became an intensely debated national issue in 1955, when 
Rudolf Flesch's Why Johnny Can't Read And What You Can Do about It 
(Harper) moved onto a national best-seller list. Flesch charged that 
the neglect of phonics instruction had caused a national crisis in 
literacy and that ``whole language'' was based on a flawed theory that 
required children to memorize words and guess how to pronounce a word 
they did not know, instead of sounding out the word. The ``look-say'' 
or whole-word method had swept the textbook market, despite the fact, 
Flesch alleged, that it had no support in research.
    Carnegie Corporation President John Gardner (1955-1967) saw the 
debate about reading as central to the foundation's interests, writing 
in a 1959 Annual Report, ``The question of whether Johnny can or cannot 
read if so why, if not why not has probably given rise to more hue and 
cry throughout the land than any other single educational issue. There 
are those who claim that today's youngsters cannot read as well as 
their parents did at their age; others state that the situation is 
actually reversed. Proponents of one or another method of reading argue 
vociferously for their method and heap scorn upon other methods. 
Wherever the truth lies, it's not yet obvious, and any research which 
may shed light on this complicated problem will be to the good.'' 
Following this logic, the Corporation soon funded a key grantee, Jeanne 
Chall of the City College of New York, to help ``settle'' the reading 
debate.
    Chall spent three years visiting classrooms, analyzing research 
studies, examining textbooks and interviewing authors, reading 
specialists and teachers. She found substantial and consistent 
advantages for programs that included systematic phonics, finding that 
this approach was particularly advantageous for children from lower 
socioeconomic backgrounds. In 1967, Chall collected her Corporation-
supported research and published Learning to Read: the Great Debate 
(McGraw Hill), which became a classic. Later, after moving to Harvard 
University, Chall developed a conceptual framework for developmental 
reading stages that extended from the pre-reading stage of very young 
children to the highly sophisticated interpretations of educated 
adults. Chall's reading stages clearly distinguished ``learning to 
read'' from ``reading to learn;'' she also identified and named the 
``fourth grade slump.''
            Advancing Literacy: Reading to Learn.
    The Corporation's distinguished history in support of literacy--
some of which is described above--has recently extended from pivotal 
initial support for the Emmy award-winning PBS series Between the 
Lions, to the work of the International Development Division in 
strengthening libraries in sub-Saharan countries in Africa. As always, 
our work in this area includes a concern with access to books, the 
search for better methods of teaching reading, and building a body of 
knowledge about the developmental issues associated with early 
childhood and adolescence. Taking all these factors into account, 
Carnegie Corporation comes to its current focus on literacy with 
enormous comparative advantage. Indeed, to many people, the name 
Carnegie Corporation is associated with the very foundations of 
literacy going all the way back to the philanthropy of Andrew Carnegie 
himself and of the Corporation in its early years; both were 
instrumental in helping to create the nation's network of free public 
libraries.
    Building on this work our current program focus, Advancing 
Literacy: Reading to Learn, was developed after an extensive two-year 
review that included consultations with the nation's leading 
practitioners and researchers. We learned that the teaching of reading 
in K-3 is well supported with research, practice and policy, but that 
these are lacking for grades beyond this point. Therefore, we have 
chosen to focus our efforts on intermediate and adolescent literacy, to 
build research, practice and policy for literacy in students in grades 
4 through 12, with a particular interest in grades 4 through 8. Our 
decision is informed by our grantmaking, which as helped us and the 
nation learn a great deal about children in their early, middle and 
adolescent years of development, as well as about teaching and learning 
and the complexity of school reform. What has become evident is that 
good school reform and knowledge of adolescent development are not 
mutually exclusive: they go together.
            Urban School Reform.
    During its tenure, the Carnegie Council on Adolescent Development 
issued three major reports, each of which informed the development of 
the Corporation's urban school reform efforts. In 1989, Turning Points 
proposed making middle schools both more developmentally appropriate 
and intellectually challenging and recommended creation of 
``communities of learning'' (now echoed in small learning communities), 
providing opportunities for all students to succeed. In 1992, the 
Council's report, A Matter of Time: Risk and Opportunity in the 
NonSchool Hours, introduced the concept of positive youth development, 
highlighted the need for opportunities for young people to have 
challenging and rewarding experiences in their nonschool hours and 
emphasized the importance of partnerships between schools and community 
organizations. Building on the Turning Points work, in 1995, Great 
Transitions, the final report of the Council, set forth recommendations 
of what an appropriate middle grades education should include; those 
recommendations form the premise that shaped the Schools for a New 
Society vision of an excellent high school education.
    Recognizing the comparative advantage provided by the Corporation's 
history of study and analysis, Vartan Gregorian, the Corporation's 
current president, challenged the foundation to address the nation's 
lack of success in achieving widespread and sustainable educational 
reform. In response, we worked closely with leading researchers and 
practitioners and conducted a meticulous review of relevant literature. 
This led to the concept of a program in Urban School Reform, 
emphasizing the troubled urban high school.
    We repeatedly encountered three intersecting discussions that 
shaped what became the Corporation's major high school reform 
initiatives, Schools for a New Society and New Century High Schools for 
New York City. The first concern centers on deeply entrenched political 
interests and bureaucratic procedures of school districts and how these 
two factors impede and undermine effective educational reforms. The 
second concern is the extent to which the lack of broad-based community 
engagement in education leaves schools vulnerable to both entrenched 
political interests and the frequent changes in leadership that 
commonly occur in urban school districts. The third concern, already 
growing as part of the national debate around standards and 
accountability, is the need to challenge the underlying assumption that 
not all students could or even should ``succeed'' in high school. We 
were especially influenced by It Takes A City: Getting Serious about 
Urban School Reform (Paul T. Hill, et al., Brookings Institution Press: 
2000), an important book that addressed all three of our concerns.
    Our focus on high schools was strengthened by an analysis of where 
the most strategic opportunity for change exists and a recognition that 
the inequities of the current system are most pronounced in high 
schools. School districts often make gains at the elementary and middle 
school level that are eroded at the high school level. Given the press 
of state accountability mechanisms and the growth of high school exit 
exams, we concluded that there would be a positive response to an 
initiative that calls upon cities to take on the challenge of creating 
a system of good high schools--schools in which all students could be 
successfully prepared for postsecondary education, employment and 
democratic citizenship. Thus, building on the knowledge base created by 
Carnegie Corporation grants, especially during the past two decades, we 
began our reform work by inviting twenty urban school districts to 
submit plans for reform. After an in-depth review that involved some 
the nation's most respected scholars and leaders in high school reform, 
we selected seven school districts to participate in Schools for A New 
Society: Boston, Chattanooga, Houston, Providence, Sacramento, San 
Diego, and Worcester. The school systems were not awarded the grants 
directly. Nonprofit, community-based institutions working with the 
school systems received the grants.

Advancing Literacy: Reading to Learn
    Effective reading and writing skills are essential to gaining and 
making use of education. At present, large numbers of young adults are 
deficient in these skills, as seen through enrollment in remedial 
writing courses in postsecondary education and massive deficits in 
performance in reading comprehension among high school students. Poor 
reading skills in high school have roots in a system that provides 
little systemic support for readers beyond the age of eight. In 
general, the nation successfully teaches literacy to children in 
kindergarten through third grade. There is no consensus, however, on 
how to develop reading strategies in the fourth grade and beyond. The 
Corporation is addressing this problem by helping to build the nation's 
capacity to teach and strengthen reading comprehension skills, with a 
special focus on grades 4 through 12, i.e., ages 9 through 17. 
Therefore, we refer to this effort as intermediate and adolescent 
literacy. The Corporation begins from a position of comparative 
advantage, having established a knowledge base of theory and effective 
practice in early learning and education systems reform.
    As we begin the 21st century the educational community faces a 
difficult challenge. What is expected in academic achievement for 
middle and high school students has substantially increased, yet the 
way in which students are taught to read, comprehend and write about 
subject matter has not kept pace with the demands of schooling. 
According to a recent international study by the Organisation for 
Economic Co-Operation and Development (Programme for International 
Student Assessment), American 15-year-olds barely attain the standards 
of international literacy for youngsters their age. During the past 
decade the average reading score of fourth graders has changed little. 
Readers who struggle during the intermediate elementary years face 
increasing difficulty throughout middle school and beyond. Poor or 
limited achievement in literacy negatively affects every aspect of a 
student's education. Conversely, effective reading to learn is a 
prerequisite for successful participation in most areas of adult life. 
In order to become lifelong learners, students must learn to engage 
competently the variety of textual information they will encounter 
throughout their lives.
    The marketplace for employment is governed by a new knowledge-based 
economy, requiring better educated, highly literate and technologically 
fluent high school graduates. The causes of the weakness in 
intermediate and adolescent literacy are poorly understood, but current 
research and practice suggest several promising avenues for 
interventions that include:
    <bullet>  A shortage of qualified literacy experts who can coach 
and teach literacy for students and teachers in the middle grades.
    <bullet>  A lack of capacity, time and will for middle and high 
school teachers to teach literacy within their content areas.
    <bullet>  A lack of reinforcement of comprehension of 
``informational text'' in early reading.
    <bullet>  A lack of strategies at the end of the third grade for 
pupils to deal with a rapid shift from narrative text to expository 
text.
    <bullet>  A lack of systemic thinking in schools about literacy 
beyond age eight.
    <bullet>  Decrease in student motivation to read as children 
progress from fourth grade through twelfth grade.
    <bullet>  Little awareness by parents and community groups that 
literacy instruction needs to continue after children have learned the 
basic skills of decoding words and following a simple narrative.
    We believe there is strong evidence that schools with a focus on 
literacy (reading and writing) are associated with improved academic 
performance and successful academic outcomes for students. At the 
Corporation, we are making grants aimed at having a profound influence 
on adolescent literacy by directing national attention to the issue, 
bringing together the best talent in the field to address the issue, 
and supporting needed research and innovative practices.

Urban School Reform
    After the investment of millions of dollars and the talents of the 
best and brightest reformers over decades of educational reform, it is 
now clear that urban schools cannot be successfully reformed without 
substantially changing the way school districts operate. The 
Corporation considers the redesigning of urban high schools to be a 
daunting challenge but also a promising target of opportunity for 
accelerating the pace of school district reform. This requires treating 
urban schools as a complex system rather than an aggregation of 
individual schools. School districts are embedded within communities 
that strongly influence their mode of operation. Therefore, school 
districts cannot succeed in addressing the problems of educating all 
students to high standards in isolation and must also employ community 
and organizational resources external to the district.
    In the 21st century economy all students can and should be educated 
to high standards. Wages paid to workers with only a high school 
education have declined steeply, and there has been a correspondingly 
dramatic increase in the added value of a college education. Therefore, 
our nation can no longer view a high school diploma as a satisfactory 
terminal degree for a substantial number of citizens. Every high school 
graduate needs to leave high school ready for college or the kind of 
productive gainful employment providing security, benefits and 
advancement opportunity. Even well paid employment not requiring 
postsecondary degrees now depends on advanced levels of literacy that 
are not common among urban high school graduates. Furthermore, given 
the escalating costs of public higher education and the lack of a 
proportional increase in financial aid, many urban students will need 
to work and continue their education at the same time.
    In addition to high literacy, quantitative skills, an understanding 
of science and comfortable mastery of technology, an excellent high 
school education must reflect our modern multicultural democracy. 
Students need help in making sense of a world in which modern media 
engulf the citizen with competing sources of information and complex 
global issues influence domestic policy and vice versa. High school 
graduates should be well prepared to assume roles as engaged and 
informed citizens in a diverse and vibrant democracy.
    Urban high schools face formidable challenges in educating all 
students to high standards. The students in these schools are more 
likely than their suburban and rural counterparts to come from low-
income families and from homes where English is not the first language 
and also to move from school to school as their parents' economic 
circumstances change. These urban students are more frequently educated 
by teachers who do not stay very long in any one teaching situation and 
in schools burdened by overcrowding, inadequate fiscal and human 
resources, bureaucratic rigidity and political interference.
    Many urban school systems have succeeded in improving student 
achievement in the elementary and middle school setting, but these 
gains are not sustained and, sometimes, are even offset by losses at 
the high school level. In most urban high schools, as many as half the 
students drop out before completing their studies. Even many graduates 
do not show adequate levels of academic achievement, with up to one-
third of high school graduates requiring remedial coursework at the 
post-secondary level. These problems are compounded by the fact that 
groups of students with varying family incomes and different ethnic 
backgrounds are separated by wide gaps in academic achievement.
    Fortunately, the knowledge base exists in both theory and practice 
to permit the creation of successful high schools, and almost every 
urban system of education has at least one or two successful high 
schools. Through the creativity of exemplary practitioners, these high 
schools have been established in urban districts, raising standards and 
expectations and challenging students to levels appropriate to today's 
economy and democracy. These schools are the existence proofs that 
urban high schools can work. Yet, throughout the country, these high 
schools stand as exceptions to the dominant, large, comprehensive high 
school, and no urban district has created an entire system of 
successful high schools.
    Most urban high schools suffer from the twin problems of inequality 
of expectation and a misplaced emphasis on economies of scale. The 
American high school, as we now know it, was created when it was 
acceptable to expect that, at most, about one-third of the students 
would go on to postsecondary education. Accordingly, the high schools 
reserved the smallest classes and most experienced teachers for the 
brightest students. Less experienced teachers taught less able 
students, usually in larger classes, and both schools and society then 
blamed the students for their inferior performance.
    The large size of most urban high schools can be a barrier to 
student achievement, making it difficult for teachers to know their 
students well enough to understand their individual learning capacities 
and needs. Large urban high schools also increase the isolation of 
teachers and undermine the development of a collective sense of 
internal accountability for student success.
    The typical operation of school districts exacerbates the problems 
facing high schools, since the procedures of school districts are built 
around assumptions of unequal outcomes and large size. School resources 
are distributed in ways that provide the best teachers and more 
congenial learning settings to the students who are the most able. 
Effective political pressure from affluent parents tends to reinforce 
these dysfunctional practices.
    The shortcomings of urban high schools are a current problem and at 
the same time a likely generator of future inequality. The Corporation 
is addressing this challenge by stimulating improvement in the 
administration of school districts to rearrange the allocation of 
resources on behalf of instruction and by treating the problems of 
urban schools in their complexity as a system, inclusive of community 
and organizational resources external to the district. The particular 
focus of the Corporation in effecting these changes is the urban high 
school, which are a target of opportunity because they are far more 
difficult to reform on an individual basis than elementary and middle 
schools and thus provide an entry point into the reform of urban 
education as a whole.
    To prepare students for their adult lives in the 21st century, 
urban high schools need to become learning communities with cultures 
that support high expectations, inquiry, effort, persistence and 
achievement by all--teachers, students and staff. In short, these 
schools must become communities of teaching, learning, purpose and 
contribution, a process that involves far more than incremental change 
in the high school as we know it. The current model for the American 
high school, which is obsolete, was not designed to educate all 
students to high levels of achievement, but rather to manage students 
by sifting and sorting them, with only a minority of students prepared 
for higher education.
    Urban high schools also need new leadership. Federal and state 
accountability requirements and greater autonomy and flexibility in 
personnel, budgetary and curricular decision making have made the job 
of school leadership far more demanding than in the past. Most current 
preparation for principals is weak and does not reflect recent research 
findings about effective educational leadership. Candidates who aspire 
to become principals follow an individual course of study, selecting a 
mix of required and elective courses to qualify for state 
certification. The focus of the curriculum is on management rather than 
instruction. Internships are rarely required and poorly supervised. 
High school principals and elementary school principals are prepared in 
basically the same way, even though the differences in their school 
environments are dramatic. There is a need to rethink seriously how we 
prepare principals if we expect to have them succeed, and we should 
encourage the district to play a constructive role in shaping that 
preparation.
    Building communities of effective high schools from schools that 
are islands of innovation and excellence requires reforming urban 
districts. Our vision for a system of high schools in which there is 
room for every student to thrive will be difficult to achieve without 
strategically aligning all the diverse resources of the district and 
community into a coherent plan for action. This involves changing the 
cultures of districts, challenging political interests and financial 
inequities and finding solutions to professional and technical problems 
of curriculum, teaching and learning, recruitment and supervision, 
school design and management and assessment and accountability 
practices.
    Schools for a New Society and New Century High Schools for New York 
City both incorporate the strategic assumptions of redesigning urban 
high schools, reforming urban districts and building effective 
leadership for districts and schools. Both initiatives seek to build 
existence proofs about the viability of wide-scale urban high school 
reform and knowledge about strategies, tools, challenges and resources 
that can be applied in other settings. The Corporation is joined in its 
pursuit of reinventing the urban high school by the Bill & Melinda 
Gates Foundation, and, in New York City, by the Open Society Institute.
    Schools for a New Society and New Century High Schools for New York 
City are not models, but broad strategies for reform. The overarching 
goal of the program in Urban School Reform is to increase significantly 
student achievement in targeted urban centers while reducing gaps in 
achievement among groups of students.

Conclusion
    Staying focused while reaching new heights is long tradition for 
Carnegie Corporation of New York. It has its roots in Andrew Carnegie's 
belief that, ``Only in popular education can man erect the structure of 
an enduring civilization.'' This belief has guided the Corporation as 
it has moved from helping to establish public libraries, to laying the 
groundwork for what we know as Head Start, to its groundbreaking 
efforts to improve middle schools. And, now, the challenge is improving 
high schools and the districts that serve them through Schools for a 
New Society and New Century High Schools for New York City. This is 
perhaps the hardest challenge of all along the lines of ``building the 
Panama Canal,'' in the words of Vartan Gregorian. The Corporation is 
realistic that there may be setbacks along the way that may ultimately 
lead to greater understanding of the obstacles. But the results to date 
higher test scores, increasing attendance rates, and a stronger sense 
that students are engaging in true, meaningful learning--show that, 
just as the Canal broke new ground at the beginning of the 20th 
century, Schools for A New Society and New Century High Schools for New 
York City can do the same in this new era.
    [An attachment to Mr. Henriquez's statement ``2001 Carnegie 
Challenge Paper: Creating a New Vision of the Urban High 
School'' is available at http://www.carnegie.org/pdf/
urbschl.pdf.]
                                ------                                

    Chairman Castle. Well, thank you, Mr. Henriquez. And let me 
thank each of you. I will yield to myself to start the 
discussion process.
    We rarely have these hearings where I agree with everything 
that everybody is saying. I agree with what you're saying. That 
doesn't solve our problem necessarily, but you've helped 
identify the problem, you've helped identify the start to 
solutions to some of the problems. I think that we all 
understand we have to do a lot more. The things we are not 
going to get into today, I worry about the cultural side of 
this, the whole societal issues of how people value education 
out there and various issues like that, but we're more focused 
right on the high schools.
    And let me just say right up front, Mr. Vander Ark, I 
couldn't agree with you more with your statement about the 
graduation rates. That is something that I have wrestled with 
for years. And I am told that we're dealing with that a little 
bit in our regulations on No Child Left Behind, but at some 
point there should be an absolute measurable device so that 
everybody can use it. And I think it is absurd that it does not 
exist today.
    My question, though, goes along a different line. You 
represent three magnificent, nonprofit entities that are doing 
some very positive things. I don't know--I have no criticisms 
of anything you're doing. But when we have--in spite of your 
substantial assets in some cases, there is no way you can reach 
out to every single high school in the country, it just can't 
be done. I mean, you're dealing in Ohio in one case, and a 
variety of schools around the country in other cases. And with 
all due respect to Mr. Gates and the Gates Foundation, even 
they can't go touch every school.
    And I worry about how all of this translates into our other 
schools. In other words, I think that it is great that the 
National Governor's Association had their summit. I think that 
helps because that gets them engaged and they truly are or 
should be at least, engaged with their schools and their high 
schools. I think it's great that you're looking at various 
devices to try to help in these various schools.
    But my problem is that getting that to every single high 
school in America. I worry about the Federal role in this. I 
worry about the state role in that, even with the Governors 
engaged, I still worry about it. And how we actually make that 
connection. Because frankly just holding out exemplary programs 
doesn't necessarily mean that somebody who's been doing it the 
same way for 20 years or 30 years and not a particularly 
successful way, is not going to necessarily buy in to that.
    So I would be interested, and I know this is a very general 
statement, but I would be interested, briefly, because I like 
to have all three of you comment on this, any of your thoughts 
concerning how we can engage high schools holistically in 
America. And what I think we all, at least up here probably and 
there, agree are reform efforts which are needed.
    In any particular order. Does anybody want to start?
    Mr. Vander Ark. I'll make two comments. It's an insightful 
question that we struggle with frequently.
    We will soon have spent $1 billion just on this problem, 
and we will soon touch about 10 percent of the high schools in 
America. So it does look to me like just the high school 
problem is probably a $20 billion issue. So we're--the family's 
contributions though substantial, are the small portion of what 
it will actually take to create the high schools that we need 
in this country.
    So my first comment is that our efforts and at least how I 
think about our efforts with these foundations are to create 
proof points, school and city-wide proof points of what's 
possible, what to do, how to do it, how much money it takes, 
what kind of outside assistance you need, what order to do 
things in. So we're trying to focus as much of our work as we 
can and work deeply in a set of cities where we are trying to 
lift achievement levels and graduation rates citywide. And 
frankly, we have a lot more to learn about how to do that well. 
So strategy No. 1 is to try and create proof points.
    No. 2, as Debbie alluded to at the end when she talked 
about knowledge management, it's culling out of that work while 
it's ongoing, lessons learned and trying to share those. An 
example of that, Debbie can talk about some of their 
publications, they do a great job. But an example would be that 
the National Association of Secondary School Principals, they 
wrote ``Breaking Ranks'' 10 years ago and they just updated it, 
and we helped ship that to every high school principal in 
America. So it's a pretty good guide to improving your high 
school.
    So there are some efforts underway and we have more to 
learn. But there's no question that every state needs to play a 
stronger role in creating a vision. First of all for its 
graduates, and second of all for its secondary schools, and 
then third for creating the intervention capacity to improve 
struggling schools.
    Chairman Castle. Thank you. Ms. Howard.
    Ms. Howard. As Tom talked about, part of our strategy is 
really to have a very deep knowledge management system that 
collects the information, and then helps us move that 
information out, and to share it with our counterparts across 
the country. And I think as we talk to each other, just in this 
room this morning, there are several organizations in here who 
talk to each other all the time, who work together across the 
country, we share ideas, we share information and we're using 
similar strategies nationwide.
    Chairman Castle. Before you go on, how about sharing with 
the schools, the ones who are not your counterparts.
    Ms. Howard. Right.
    Chairman Castle. I assume your counterparts are other 
organizations like yours.
    Ms. Howard. Yes.
    Chairman Castle. But my concern is, of course, is getting 
it to the other schools that are not involved with those 
counterparts.
    Ms. Howard. That's the whole strategy behind our design for 
Ohio. We chose specifically districts that are throughout the 
state, that are the most troubled districts, knowing that if we 
can move them far enough fast enough, we can impact other 
districts. And that is already showing to be true. We're 
already having other districts in suburban and rural areas ask 
us for the information.
    I said we have coaches embedded on the ground. Those 
coaches come from across the country. They have actually helped 
design work now in schools across Ohio and several other 
states.
    Chairman Castle. Yes. Mr. Henriquez.
    Mr. Henriquez. Yes, I would just like to add and dovetail 
to many of the comments that have already been made. I think 
that foundations can best be incubators of ideas, and we see 
the Schools for a New Society and the work that we're doing in 
the urban schools as truly proof of concept.
    And we hope that these could become sort of effective 
models that provide a roadmap for replication, much like the 
work that Carnegie has done in early childhood education, where 
we worked for 30 years, and provided at least a lot of valuable 
tools. And through dissemination of knowledge and information 
that we hope that those schools that are not getting those 
resources are at least getting the kinds of information that 
will help them at the ground level at various levels.
    Chairman Castle. Let me thank you for all of your answers 
and I think you do wonderful work. But I have this horrible 
vision in my mind, and it is this: That I see Carnegie doing 
this wonderful glossy brochure that lays it out, lays out the 
facts, the data and everything else. I'm just using that as an 
example, whatever, and it is distributed. But there are those 
who simply don't want necessarily the change. They have sort of 
been doing it their own way, they are 3 years from retirement, 
and they aren't really ready for new challenges or whatever it 
may be. And that could be administrators, it can be teachers, 
it can even be parents. It's a lot of people.
    I just worry that they don't have the same enthusiasm for 
the change and the improvements that we need that you all have.
    So I would just encourage all of you to always be thinking 
that way. How can we reach beyond what we are doing to make 
sure that we're touching on everybody else. Because frankly, 
it's the ones that you're not touching on who probably need the 
most help.
    Probably when you go forward and try to find schools, you 
know, it's the ones who raise their hands. So it's like kids in 
class, the ones who raise their hand to say we want to be 
involved with you, you're most likely, you know to choose. And 
it's those others who just don't want to be called on, who sort 
of stay away. So I just think it's a continuous problem in 
education. Not to be overly harsh about education, but I think 
it's something with which we have to deal.
    But let me turn to Ms. Woolsey for comment.
    Ms. Woolsey. Thank you, Mr. Chairman. I would like to 
welcome Representative Chaka Fattah from Philadelphia, who is 
just up here listening and learning with us. Thank you, thank 
you for being here.
    OK, that is the answer. You know--you asked the question 
and then the answer is why isn't the government, our 
government, Federal and state, ensuring that all of our 
children have the education they need for the future of our 
country. Not just their future but our nation's future.
    I'm so thankful that you exist. Thank you, thank you, thank 
you. But I am so embarrassed that in a country when public 
education is supposed to be the very core and center of who we 
are and why we are such a good, productive nation, is going 
down, while the demands are coming up. So I see you as models, 
as examples.
    The school, Sir Francis Drake, that Mr. Henriquez talked 
about is in one of the best school districts in the country, 
and one of the most affluent districts in the country, one of 
the most progressive districts in the country. They know how to 
get help, they know how to look forward. We need to talk about 
schools--not that I don't want my schools to get what they're 
after, but I want all schools to have these same privileges. If 
it means we have to do more to help them get interested then 
that's our job, to help them do that. It's not totally private 
foundations. But what you're doing, I admire so much.
    OK, I'm going to go. Just a couple of things. Ms. Howard, 
both of the gentlemen on each side of you talked about school 
size and teacher quality. Would you talk about that too, about 
how important it is, both of those issues are, to providing a 
good education for our high school kids.
    Ms. Howard. Yes. Thank you very much. Definitely. All of 
our schools are formed with 400 students or less. We believe 
that that's the size in which teachers and students can really 
form relationships, and in which teachers can take students 
deep into the work, not just touch the surface of the work.
    Ms. Woolsey. How about class size?
    Ms. Howard. Class sizes range anywhere from 15 to 25. We're 
still working on finding new ways to impact class size by 
changing the schedules of the day, using teachers differently, 
using time differently to try to get down to smaller class 
sizes.
    Ms. Woolsey. Teacher quality?
    Ms. Howard. We've worked a great deal in teacher 
professional development. We think that's critical. The 
districts in which we work sometimes have some of the least 
experienced teachers, and so we provide a lot of training at 
the state level. We then follow that up with deep embedded 
coaches in the schools and in the classroom to help.
    We also have had strong experiences working with the 
teachers' unions. And the teachers' unions in the districts in 
which we work have become real champions for change, and 
they're the ones who are encouraging all of their teachers, not 
just their first year teachers and second-year teachers, but 
their seasoned teachers to change and to take advantage of the 
opportunities that are offered. The unions are a main force 
behind the change in our schools.
    Ms. Woolsey. Which is very important. Mr. Vander Ark, of 
course, with the Gates Foundation and Microsoft, you know being 
hooked together, there is, I am sure, the express need for 
high-quality, high-tech kids coming out of school and their 
education. How are you supporting the idea in your programs for 
girls becoming more proficient in science, math and technology 
with the idea that they are over 50 percent of our workforce.
    Mr. Vander Ark. Let me give you two answers to that 
interesting question. First of all, in math and science we have 
helped to sponsor three exciting networks of schools in 
California. High-Tech High, and New Tech High, and Envision in 
the Bay Area, three really high-quality examples of math 
science and technology schools.
    We believe there are similar opportunities in other states. 
We're in conversation in Texas right now about an opportunity 
to expand the number of math science and technology schools. 
And in New York City we have funded a number of math science 
and technology schools. So that's one opportunity.
    Ms. Woolsey. Are you finding some women interested in them.
    Mr. Vander Ark. Absolutely. In all of those schools are 
about 50-50.
    Ms. Woolsey. Mm-hmm.
    Mr. Vander Ark. Let me give you the flip side of the issue 
though. We have a boy problem in America, especially a minority 
boy problem.
    Ms. Woolsey. Mm-hmm.
    Mr. Vander Ark. The families also funded a scholarship 
program called the Gates Millennium Scholars, which provides 
1000 scholarships a year to high achieving, low-income students 
of color. It is now over 60 percent girls. And if you go to 
institutions of higher education, you will find that many of 
them are now 55 to 65 percent female.
    So we need to pay a lot of attention to this emerging 
problem. It's one that I don't admit to fully understand. It is 
a cultural as well as an educational issue that we need to pay 
attention to.
    Ms. Woolsey. But before high school.
    Mr. Vander Ark. Absolutely.
    Mr. Woolsey. Thank you. My time is up.
    Chairman Castle. Let me just personally thank you, Mr. 
Vander Ark. Ms. Woolsey is always telling me about girl power 
here, so I'm glad to hear someone defend the boys for a change.
    Mr. Osborne, the Vice Chairman of the Committee is 
recognized for 5 minutes.
    Mr. Osborne. Thank you and I would like to thank those of 
you on the panel for being here this morning.
    Just a couple of thoughts. We talked about some of the 
problems with young men just now, and in my previous profession 
I think I sometimes I ran into--maybe a part of the problem is 
that with some young men in certain areas it's not the thing to 
do to be a good student, and matter of fact that's sort of 
social taboo, particularly early on.
    I wondered if any of you have done anything to address some 
of the social issues, because certainly poverty is a difficult 
thing. But if you're from an area where there is a lot of 
violence, drugs and alcohol enters into the thing. And I 
wondered if, you know it's very easy to maybe have a school 
that's fairly select, people want to come there, but you're 
also maybe dealing with a little bit of a select population.
    So I wondered if in your endeavors, you have in any way 
attempted to address some of the social problems and cultural 
problems that we see affecting kids today that maybe weren't 
quite as prevalent 30, 40 years ago. And that's a question for 
any of you, if you'd like to.
    And then let me just throw one other question at you, if 
you don't want to answer that one, and that is it seems that 
most of your efforts are focused at the urban level. But you 
know we have a lot of poverty in rural areas, and we have a lot 
of kids who are struggling because of a lack of IT, you know 
their course offerings are pretty limited, and I wondered if 
you have done anything at the rural level. So those two 
questions, anybody answer any way you want. Thank you.
    Mr. Henriquez. I just wanted to say, thank you for raising 
the question, Mr. Osborne. I think that the--as Tom pointed 
out, the boy issue is a very severe issue, and we are beginning 
to look at that. In fact, this summer we just had a conference 
recently at the foundations around lost boys. And if we think 
that 70 percent of incoming ninth graders are bad, if we just 
disaggregated that data and we disaggregated the data on drop 
outs, what we see is mostly black and Latino males.
    One of the first schools that was taken over in New York 
City to be a small school was Julia Richman High School, the 
school that I graduated from in 1978. And I don't see many of 
my friends on the Delta shuttle. I don't see many of my friends 
here at the Rayburn House that I graduated with. I was one of 
the fortunate ones.
    But with that said, I think that one of the issues that 
we're trying to get at, certainly through literacy, is both the 
issue of how do we address the number of boys that are 
continually failing. And if you see that population also in 
incarceration figures, sir, you will see that not only are 
there high numbers of those students who are dropping out and 
going sometimes directly into jail, but the literacy rates for 
those students are also a very sad figure.
    The rural area as I mentioned in my testimony are also 
areas that are not without their problems. And even though 
these problems are exacerbated in the urban areas, they are 
just as likely to exist in rural areas as they are in suburban 
areas. And so it is something that we are trying to focus on, 
sir.
    Ms. Howard. Mr. Osborne, I would like to talk very briefly 
to build on what Andres has said about the literacy and the 
reading issues. What we have found as we have worked in high 
school is that predominantly with--even with males in the ninth 
grade, there is an acceptable academic structure. It is OK for 
them to not pass science and it's OK for them not to pass 
mathematics. It is not OK, even among their peer group, for 
them to not pass the state reading test, so even among 
themselves they know that that's the gatekeeper. That's one of 
the reasons why we work so hard in the area of literacy, 
because literacy opens the doors.
    The work that we've done on the ground in literacy, 
actually if you can get young men excited about reading, they 
will carry paperbacks in their back pocket, they will talk to 
each other at lunchtime, they'll choose authors that they like 
to read. We've even had some inner-city young men get so 
excited about mysteries that they'll read a Nancy Drew if there 
is no other mystery available on the shelf. That really does 
seem to be the gatekeeper. And it is the same in rural areas.
    I grew up in rural Nebraska and so I understand very much 
what you're talking about. What we're trying to do now with our 
early college initiative is to try to find a way for those 
rural schools to come together to be able to share services and 
offer those things that are more readily available in the 
suburban and the urban areas.
    Mr. Vander Ark. I'll add a couple of quick thoughts. We 
have grants to 2000 schools, and 15 or 16 percent of them are 
rural. One exciting story about a little town in eastern 
Washington called Mapton, had a terrible high school. And after 
the last 4 years of work just had a hundred percent graduation 
rate and a hundred percent college attendance rate. So it is 
possible, when a community rallies around its high school and 
dramatically changes its expectations, that great things can 
happen. Now that's a school of almost a hundred percent kids in 
or near poverty, and over 70 percent Latino.
    But you point to a cultural problem that's a big and 
complicated issue. We've made, we've stumbled forward on a 
couple of different fronts. We recently created a partnership 
with MTV to try to use the media to, as Debbie said, to make it 
cool to be smart. We see, as Debbie pointed out, especially in 
new schools that you can quickly change the culture where it's 
cool to be smart in a new school. It's a more difficult 
challenge to get it--to uproot and change the culture in a 
large struggling school.
    We've just begun some work in Los Angeles enlisting student 
voice, student leaders in their school to be on campus 
encouraging other kids to participate in college preparatory 
curriculum. So I think there's a lot of opportunity there to 
engage kids in helping to turn this around.
    I was encouraged by Hugh Price's leadership at The National 
Urban League. This was really an area of focus for him when he 
launched the Achievement Counts campaign. So I think that 
there's work that we all need to do to turn this culture 
around.
    Here's the bottom line. We need American kids to work 
harder. That's really what it comes down to, we need most of 
them to work harder. There's 10 percent that are working pretty 
hard today, but most of them are just flat. They need to work 
harder. So part of that is schools that are more challenging, 
interesting and supportive. But it's also the adult 
expectations for them and for their future.
    Mr. Osborne. Thank you. And I yield back.
    Chairman Castle. Thank you, Mr. Osborne. Mr. Miller is 
recognized for 5 minutes.
    He yields to Mr. Scott, who is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Vander Ark, you 
mentioned proof points, and I assume that means you've just 
shown that it can be done. You mentioned a terrible school 
going to a hundred percent. We have at least one school in my 
district that they focused on that has eliminated the 
traditional racial gap.
    How long have you been working at the Gates Foundation?
    Ms. Howard. Actually I am working with Knowledge Works 
Foundation. We've had our partnership with Gates since the fall 
of 2002. And we've actually spent 3 years working to prepare 
the teachers for the change, and letting teachers help design 
their schools. Now there have been really 1 year of operation 
in our conversion high schools, and 1 year for most of our 
early college high schools.
    Mr. Scott. OK. Mr. Vander Ark mentioned a powerful school 
where everybody is graduating, and other schools where few 
students are graduating. And I like the calculation where you 
look at how many people are in middle school and compare it to 
the high school, because whatever happens in the summer and all 
of that you just lose them. But that is a calculation that I 
think you ought to be using.
    But there is a difference. You can see the difference 
between one school and another. Now, we've talked about class 
size, is that an element of a powerful school, the lower class 
sizes?
    Ms. Howard. Class size is definitely an element. But so is 
instructional strategies, the way in which teachers help bring 
students to the information and the way in which students will 
learn. We're finding that the traditional stand and deliver way 
in which curriculum was delivered back when I went to high 
school is not the most effective way for today's kids.
    Mr. Scott. Well, how do we make sure that they use the up-
to-date methods? Is up-to-date methods common, is that an 
element in the better schools?
    Ms. Howard. It is definitely an element in the better 
schools.
    Mr. Scott. OK. We're talking about teachers. We have a Head 
Start bill that we're considering, and there's an amendment 
that we're going to consider that will allow discrimination 
based on religion and hiring. Would that help?
    I mean some of us think that's an outrage, just to say that 
we don't hire people of different religions. Would that be 
helpful to education, to teach kids that you can be selected 
based on religion. Would that be a good head start or a bad 
head start to subject people, kids to that kind of--their 
parents being discriminated against can't participate in the 
Head Start Program. Is that something, in terms of improving 
schools, is it something that you're proposing that we allow 
discrimination?
    Ms. Howard. No sir, we're not. That is not an area in which 
we've worked. We've really worked on instructional strategies 
and because we do not--we don't actually hire the teachers. We 
work with----
    Mr. Scott. But do you think that you're going to improve 
the schools without the schools starting to discriminate for 
the first time in decades?
    Ms. Howard. We're hoping that we can.
    Mr. Scott. OK. If kids fall behind a little bit, remedial 
education, is that an element making sure you catch them when 
they fall behind a little bit before they fall behind a lot?
    Ms. Howard. Remedial work is definitely a piece of it. What 
we like to do though, and an area where we've been focusing 
resources is on actually using diagnostic tests for students 
when they come in, so that every teacher knows where those 
students' strengths and weaknesses are the minute that they get 
in their classroom. Then they design an individual 
instructional plan for that student.
    Mr. Scott. For each student?
    Ms. Howard. Yes sir. We believe that's critical.
    Mr. Scott. I guess, what about parental involvement?
    Ms. Howard. Parental involvement is important. In our early 
college high schools, parents must sign a contract that they 
will allow their student to stay late for remediation, to come 
on Saturdays, to really be involved, and the parents and 
students together are involved in teacher-parent contracts and 
in conferences.
    Mr. Scott. Now funding all of this, sometimes it costs more 
to educate the lower income students, because they come with 
deficits, and we have the expert on school funding here, who 
has joined us. Is the funding mechanism based on real estate 
counterproductive, because the lower income areas end up with 
less resources?
    Ms. Howard. Sir, I'm not a school funding expert. I will 
turn it over to one of my colleagues who might know more. I'm a 
curriculum and instruction person.
    Mr. Scott. Well, you have to pay for it.
    Ms. Howard. Yes.
    Mr. Scott. Is that counterproductive? Is funding things 
based on a local real estate taxes, where the lowest income 
areas get the lowest resources, is that a good idea or a bad 
idea? I mean, you've got two other people.
    Well, some of us think that it is a bad idea. Mr. Chairman.
    Ms. Howard. I would say sir, that part of the research that 
we are doing in our publications like Dollars and Cents that 
we're partnering with the Gates Foundation, is we're trying to 
look at schools to say how can you use the resources that you 
have differently and more effectively. We know that our money 
is only like a vitamin B shot, it can only jumpstart the 
change. The schools are going to have to sustain that over 
time, and so we want to help them figure out the best way to 
make the best use of what they do have.
    Chairman Castle. Thank you, Mr. Scott. Mr. Miller is 
recognized.
    Mr. Miller. Thank you, Mr. Chairman. I would like to just 
sort of follow on with what Chairman Castle talked about. And 
that is, you know, we are always looking for the manner--I 
guess today the term is tipping point, but at what point do we 
get to where replication is really feasible.
    And we know that you're working with institutions that are 
highly personal. I've been involved in schools that look like 
they were soaring and the principal had a heart attack and the 
programs fell apart. I looked at other schools where in another 
case the principal was mugged and decided that they were 
leaving just as we were starting to see turnaround in very 
difficult schools and very difficult environments.
    I just want to, what is the interplay here between some of 
the, you know exciting environments that you're creating and 
successful environments that you're creating, and we get to the 
idea that this is fundamental change.
    In your paper, Mr. Henriquez, you point out that many of 
these schools need new leadership. You know, too often what 
we've seen is that--the idea of change has been adopting a 
different reading program and then just sort of laying that 
down on top of all the teachers and saying, OK now this is the 
way we're going to teach literacy or this is the way that we're 
going to teach reading, and that somehow is equated with--, and 
it appears that it doesn't work because 4 years later they're 
buying another program because that one didn't work.
    How do we build the capacity so that we can then extend 
beyond those successful environments that you've created in 
these partnerships, and we can really seriously think at the 
Federal--you know, if we are going to invest what may be $20, 
$30 or $40 billion, if Mr. Vander Ark's numbers are right, and 
we really want to do this in a first-class fashion, how do you 
know that you have a business plan out there for that kind of 
success? Because I think you have created some very exciting 
environments, that again are also successful environments. I 
think excitement and success kind of go together with young 
people and change the manner in which they are asked to learn 
and engaged to learn.
    Let me stop there and just ask you this question of 
replication and building that internal capacity for expansion.
    Mr. Henriquez. I'll just say a couple of words about the 
issue of--we understand that the very fragile infrastructure of 
school leadership is indeed exactly that, fragile. And one of 
the things that we've seen especially around literacy is that 
we want to build distributive leadership so that the 
responsibility and onus of leadership is not built on one 
individual, but a team of people within a school building, that 
if for some reason if something happens to that principal, that 
there is an infrastructure that he or she can depend on that 
will then know the knowledge and the necessary information and 
strategies that are going to be useful to implementing the work 
in terms of the vision that individual and team have laid out.
    One of the things that we're working with is the National 
Association for Secondary School Principals, along with the 
Bill and Melinda Gates Foundation to really figure out exactly 
how do you build this distributive leadership, particularly 
when it comes to issues around literacy. So that you're not 
doing this issue of changing formats and reading programs every 
four or 5 years, but that you have a vision, a long-term 
vision, for how this is going to be implemented over the long 
term.
    I'm sure Tom has other words of advice.
    Mr. Vander Ark. You've addressed two big, related issues. 
I'm going to try to make comments on each one. One is on the 
tipping point issue and the other is the capacity to create and 
sustain the change.
    My great hope is that a generation from now that more than 
80 percent of American kids graduate, and that a generation 
from now African-American and Hispanic kids graduate at rates 
that are comparable to their white counterparts.
    The change that I think about that needs to take place in 
the next 10 years to make that possible is at three levels. One 
is, I think we need several thousand great schools spread all 
over the United States that show what's possible, newly created 
schools and dramatically improved schools, but thousands of 
proof points of what's possible and what good secondary schools 
look like.
    Second, I think we need several dozen, probably three dozen 
districts that have made dramatic improvement in the percentage 
of students that graduate from high school ready for college.
    And third, we need at least half a dozen states, preferably 
big ones, that have really moved the needle, that have both 
created a good policy set and an intervention capacity and have 
seen significant increase in the number of kids graduating and 
the percentage of those children ready for college work and 
citizenship.
    So that's my theory of action. Those are three things that 
I hope to help this country accomplish 10 years from now. As I 
think about the capacity necessary to reach that, we've begun 
to understand that school developers and school model providers 
need to have--need to be very prescriptive about what the 
school model looks like and they need to provide a high level 
of support. My early grants didn't reflect that. They were 
pretty loosey-goosey and we now make grants that are quite 
prescriptive in terms of school design and support.
    Second, the states are going to have to build much more 
capacity. We are going to need much stronger state education 
associations than we have today, or education administrations 
that have clear standards and really strong data systems, and 
intervention capacity to help improve struggling schools and 
districts.
    Ms. Howard. I would like to build on that for just a 
minute. One of the things that we have begun doing this past 
year to really build the statewide capacity is to start 
training the school improvement coaches that employ by the Ohio 
Department of Education right alongside our coaches. So they're 
learning all of our strategies, they're learning the design of 
these schools, and then those school improvement coaches go out 
to districts far beyond the ones that we're working with and 
they help design that work.
    The other thing that we've really focused on since day one 
is building the knowledge of what education has to look like in 
the communities in which we work. And we're now focusing pretty 
heavily on building--on helping communities learn how to 
advocate for what they want and what should be in their 
schools. And parents talk to parents. I don't care if you're in 
an inner-city, or a suburb, or a rural area, parents are our 
greatest advocates for what should happen. And if we can get 
them to understand the new design of schools and if we can get 
them to stand up and fight for that, then schools will change 
rapidly.
    Chairman Castle. Thank you, Mr. Miller. Mr. Ehlers is 
recognized for 5 minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. And thank you all for 
being here. I apologize for being late, but I was in another 
Committee meeting trying to improve the security of this place. 
It's terrible that we have to spend so much time worrying about 
terrorism, but it has to be done.
    Mr. Vander Ark, it is good to see you again. I enjoyed 
visiting you some years ago at your foundation. It's good to 
see you're still there doing good work.
    As some of you know, and as my colleagues know because I've 
bombarded them ad infinitum on this, I'm very strongly in favor 
of improving our math and science education throughout our 
nation. And high schools are not doing well, I am sure you're 
aware of the Thames study, the more recent pieces of study and 
so forth. We're not even doing well in the K-8 system. But at 
least we're near the average of the developed countries. But it 
seems to drop steadily after the fourth grade, and by eighth 
grade, we're well below average. High schools, we're very near 
the bottom.
    I have really been pressing this issue for some time and 
we've done some things. As you know the Federal Government 
can't solve all of the problems, but we have developed math 
science partnerships which will train teachers, and I think 
that is one of the keys.
    It becomes increasingly important--30 years ago when I was 
teaching at Berkeley, they did a survey and discovered that if 
you did not take advanced math in high school, it is impossible 
for you to complete, in 4 years, 95 percent of the majors at 
Berkeley. Now, Berkeley is Berkeley. But I think that's 
probably true of most higher education institutions at this 
point. And so kids, by their decisions whether or not to take 
math and science in high school are directly affecting their 
academic careers in college and their professional careers 
after that.
    I would like your ideas on what we can do. Part of the 
problem, much of the problem may be schools where students are 
underperforming, maybe the school is underperforming. But even 
in high-quality schools that would meet the standards that Mr. 
Vander Ark outlined for these exceptional schools you need, we 
have some of those in this country, most of them in the 
suburbs. Rural schools have problems, urban schools have 
problems.
    But I'm interested in your suggestions, and in particular a 
reaction to something that has been floating around here, and I 
see it in the literature too, that we should do the same thing 
we did after Sputnik, that is have another national defense 
education act or something like that. Do you think that is a 
good approach? What other ideas do you have of things that the 
Congress can do which will really spur this? I would appreciate 
any comments from anyone of you.
    Mr. Vander Ark. We have lots of school choice in America. 
There's lots of choices in high school, it is just all the 
wrong kinds of choices. We let 15 year-old kids with no adult 
guidance stitch together a curriculum of their own creation. 
And we give them a phone book-sized catalog of courses that 
vary by degree of difficulty, and we actually provide the 
subtle encouragement to low-income and minority kids to take 
easier courses. And then we wonder why two thirds of our 
American kids don't get what they need or deserve from the 
school system. It's time for us to lead. We have to stand up, 
and the adults in educational systems need to prescribe a 
curriculum that will prepare students for college and work in 
citizenship.
    That's what good schools do they make choices about the 
curriculum. They don't let kids who don't know any better 
decide what courses to take.
    So as the American Diploma Project of Achieve, Incorporated 
is encouraging, and as the State Scholars Program, the Federal 
Government has helped to support, both of those programs are 
advocating, kids ought to be in a course of study that prepares 
them for college work and citizenship. And it clearly should 
include 4 years of math and science.
    So there's an opportunity here for the Federal Government 
to continue to lead. States need to do more. There are only two 
states in the country now that require Algebra II, which is 
required to pass a community college placement exam in just 
about every state in the country. There are only two states 
that require that for graduation. So there is clearly an 
opportunity to lead on this front.
    What I mentioned earlier, what I'm quite excited about is 
the development of networks of math and science high schools. 
An opportunity for us to work together would be to make a 
commitment that every city in America have at least one great 
math science technology secondary school. We can do that 
together and we could get it done in 5 years, and make sure 
that every city in this country had a great secondary school 
six through 12, or 6 through 14, where kids left with at least 
a year of college credit. There is no reason we couldn't do 
that in very short order, and then use that as a lever to help 
inform the improvement in all high schools in America.
    Mr. Ehlers. Let me just react to that a moment, because I 
don't disagree with you. But the point is, that solves a 
shortage of engineers, scientists and so forth. But the jobs of 
the future at every level are going to demand good skills in 
math and science. And I am not talking about going into science 
or engineering. Perhaps technical jobs, but almost every job in 
the future is going to require a fairly substantial skill set 
in math and science. So how do we reach the masses?
    Mr. Vander Ark. We reach the masses by lifting our 
expectations. My home state requires 2 years of math, and they 
don't tell you what it is, so most kids take consumer math 
instead of Algebra II. So, this is one of the important things 
that is coming out of the National Governor's Association 
summit. I think half the states in this country are going to 
take serious steps toward lifting their standards, setting a 
default curriculum, lifting their graduation requirements, so 
that at least over the next 5 years we move toward higher 
expectations in math and science. I think that's the way that 
you reach all high schools in this country, and then we create 
examples of what is possible and how that can be done well, in 
an exciting and applied learning environment.
    Ms. Howard. I think, in addition to narrowing the 
curriculum--and I think that that's a really good start--one of 
the high schools with whom we are working, started out with 193 
courses in their course catalog. And that just doesn't work. So 
I think narrowing the curriculum is a good start.
    But the other thing that is really important is making that 
link between what they are learning in the classroom and what 
they are going to need it for later in life. And we need to 
find a really effective way to connect what students learn in 
the classroom. I go in to schools every day, and there are kids 
who say, ``why do I have to learn math, or why do I have to 
learn science? How am I ever going to use that in the future''. 
We have to show them how they're going to use that in the 
future, and that's going to require a strong partnership among 
not just the schools, but government and corporations as well 
to bring that relevance to the classroom learning.
    It also means that we have to think differently about how 
we award credit in high schools. You know right now, it is--you 
have to get a waiver for a student to earn credit for having an 
internship in a hospital where they are actually helping the 
medical professionals in that hospital. And it's learning math 
and science skills at the same time. So it's narrowing the 
curriculum, it is making relevant what they're learning and it 
is also looking at the ways in which we use time and award 
credit.
    Mr. Ehlers. Thank you.
    Mr. Henriquez. I agree with my colleagues. I think one of 
the things that we've seen through our research is as soon as 
our youngsters enter science and mathematics classrooms, that 
it's not that they don't think the content is fun; students 
love math and students love science. It's particular--
particularly when it's innovative and it's hands-on. But we see 
them disengage because they don't really understand the content 
of the text. The ways in which the text or the ways in which 
the content is instructed, and the ways in which teachers 
design that curriculum is absolutely important in the children 
really understanding and engaging with that content.
    We're seeing that students, particularly with science and 
even history textbooks, just can't engage at that level. One of 
the ways in which we engage students, and more importantly how 
do we balance both the need to help the students improve their 
literacy rates and also balance the fact that they also need 
science and mathematics daily. How do we do that? Because I 
don't think it's an either/or.
    Mr. Ehlers. Thank you very much.
    Chairman Castle. Thank you, Mr. Ehlers. Mrs. Davis is 
recognized for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you to all 
of you. As a former school board member from San Diego, I've 
been sitting here listening to you and high-tech high obviously 
is a very good example there. But what I'm struggling with in 
many ways is what our role is. You know, what can we do here on 
the Committee, in Congress nationally, that makes a difference 
in how teachers teach, how young people come to school, how 
communities respond to students. And you said a number of 
things, and I think there are some wonderful examples that have 
been cited.
    Part of the difficulty that I see is often, you know, it's 
that conundrum in a way from having something that comes top-
down versus bottom-up. You talked about being more prescriptive 
with the support that's there in communities and I appreciate 
that, that's important. And yet I sometimes see a lot of 
resistance as a result of that.
    And again, I am struggling between having on a school board 
hat, which is more, you know--it's all local versus our role 
here and what we can do. I've wondered as well, you know do we 
need a major initiative, No Child Left Behind obviously has its 
pluses, but it's got some negatives as well, because it makes 
people shift gears, you know, even if they're doing something 
that's positive. I'm struggling with it a little bit.
    You've obviously seen some of the resistance, I'm sure in 
the schools. What would you consider to be the key elements 
that, from our point of view, from where we sit here today, we 
can promote that makes a difference in terms of that 
interaction between a teacher and a student, because I think 
that's where it's at. When you look at European programs, there 
is a lot more going on in the classroom.
    I'm going to lose my time here, but just anecdotally, I 
know as a school board member I used to go around to classes, 
and I don't think this has changed that much, and I used to sit 
with the teacher throughout the course of the day and observe 
that same teacher teaching gifted students and non-gifted 
students, which we would call non-gifted classrooms, and there 
is a difference. There's a difference in body language, a lot 
of things that are happening, because discipline becomes a 
bigger issue than what kids are getting in the classroom 
sometimes. I suspect that's still probably a little bit true.
    So can you help me, what from our point of view, really 
promotes that special interaction between a student and the 
teacher. I'm very familiar with the National Board for 
Professional Teaching Standards. I don't think we do much with 
that. I think we could and we should. I think businesses could 
support teachers as they go through that process. Is there 
anything else that you can add to that?
    I apologize Mr. Chairman, I have a question, but I'm really 
more interested in what is it that we can do?
    Mr. Henriquez. Well, certainly I think the building of 
public will is absolutely critical to this effort. And what 
we're seeing in terms of the work that we are doing in schools 
for a new society is that teachers are spending a lot more time 
collaborating with students and getting to know individual 
students. This is probably something that couldn't have 
happened before this initiative started. And we're seeing that 
growth.
    We're also looking at the ways in which professionals--how 
do we train teachers as well as leaders who are coming into the 
system to ensure that they know how to work within these small 
school environments?
    Mrs. Davis. I think----
    Mr. Henriquez. So it is not just the teachers who were 
there.
    Mrs. Davis. I think you would probably include 
instructional leaders, principals as well as--that really 
have----
    Mr. Henriquez. Absolutely. How do we include that pipeline 
of people who are coming into the workforce and turns of 
education to insure that they know how to engage with the 
students within this context of small schools?
    Mrs. Davis. Mm-hmm.
    Ms. Howard. Having clearly anything that you can do to 
encourage the type of instruction that is prevalent and those 
who are National Board Certified Teachers, anything that you 
can do to encourage that would be very very helpful.
    If you look at the way in which most of our teachers learn 
to teach in today's higher education, they don't learn to teach 
in a way that National Board Certified Teachers do. They are 
more taught to deliver information and to have students come 
and tell them back what they have already given them. And 
that's not the way. So anything that you can do to promote 
that.
    Also I think that it's very important for us to look at 
ways to break the barriers between high school and higher 
education. There are some artificial walls that have been built 
between those systems. And as was alluded to earlier sometimes 
in the last couple of years of high school, students really 
could be doing more and pushing further. But there are some 
barriers to that built into the system, so it would be helpful.
    Mrs. Davis. Thank you.
    Mr. Vander Ark. I'll reiterate, four recommendations--to 
help sponsor new schools, and help provide aid to failing 
schools, and support the National Governors Association policy 
efforts, and support data systems. I think it's critical that 
we provide teachers with good data about their kids, and that 
that data be able to follow the kids.
    Mrs. Davis. Yes.
    Mr. Vander Ark. So that the next group of teachers knows 
about the needs and gifts of each student.
    Mrs. Davis. I appreciate that. And also your comments 
earlier about knowing what it really takes to educate a student 
today. It's very important, and often we don't take all the 
considerations that we have to. We may not be able to do all of 
that, but we should know what it takes. Thank you.
    Chairman Castle. Thank you, Mrs. Davis. Mr. Hinojosa is 
recognized for 5 minutes.
    Mr. Hinojosa. Thank you, Mr. Chairman. I want to thank the 
participants on this important hearing that we are having. I 
think it's been very interesting and surely educational for me.
    I, too, have served on the local school board and on the 
Texas State Board of Education, and now here on this Education 
Committee for 8 years. So I agree with you that it's no secret 
that we are losing our competitive edge in producing experts in 
math, science and engineering.
    If we do not engage and provide both quality and 
challenging educational opportunities for African American and 
for Hispanic American children I think are just going to 
permanently cede the leadership in this area.
    So listening to some of the ideas that each of the 
foundations you represent have used to create what has in some 
cases resulted in some of the 100 best high schools in our 
nation--I know I've seen the list in 2004, and I saw the latest 
one in 2005--I am pleased to tell you that I come from South 
Texas, a very small area compared to San Antonio, Houston, 
Dallas and Fort Worth, but it is very rural. And we have one of 
those top 100 high schools. It was eighth best in the country 
last year, and is in the top 40 now.
    Forty percent of the children in this math and science 
Academy in South Texas Independent School District are on the 
free lunch program. There is a lot of difference in that school 
versus the one in Highland Park in Dallas where there are no 
children on a free lunch program. And if you take a look at 
differences, the makeup of the children--of those schools, ours 
has 80 percent Hispanic children, Highlands may have one or 2 
percent Hispanics, mostly non-Hispanics.
    So there are big differences, but there's definitely some 
similarity, and that is they have a lot of teachers with 
Master's degrees who are able to really get involved with the 
children, with the students, and turn them around from the idea 
that you can only take the very minimal courses. Instead 
they're going one and a half hours longer than the normal 
programs that we have. And these are public schools that I am 
referring to in Mercedes, Texas, South Texas ISD, Math and 
Science Academy.
    They are bused from as far as Brownsville to Mercedes, and 
as far as San Isidro and Edinburg to Mercedes. It seems to me 
that those programs have some other components that each of the 
three of you have mentioned. Very good teachers, challenging 
programs, longer hours than the normal, and higher 
expectations.
    So look at the model I know in Mercedes, and look at who 
was feeding into that program, into the math and science 
colleges, and it's the students in the Gear-Up program. Gear-Up 
is working for both the African American and for the Hispanic 
children. It's funded at about, a little--slightly over $300 
million and has a lots of success stories.
    Why couldn't each of your foundations and others match the 
government and give us more of the programs that take a whole 
cohort of students, a whole classroom, rich, middle income and 
poor, and do what that program is doing.
    Look at creating these regional schools. I call them 
regional because the one in South Texas ISD is considered to be 
regional because there are 28 school districts feeding into it, 
and do a six state--or as many states as you want to. But you 
see, it's not just for the urban, it's also for the rural like 
we have. And it puts to bed the myth that children of United 
Farm workers and migrants cannot learn. It's that they're given 
the tools, the computers, the teachers, the challenging, and 
they learn about team learning that we use.
    It seems to me that there is hope, and we need to look at 
what's making those top 100 high schools work, and put it to 
use here in Washington.
    I yield back, Mr. Chairman.
    Chairman Castle. Representative Hinojosa, I was just at 
South Texans a couple of weeks ago, not two, a quick story 
about it. A school in Donna, called Idea, it's a K-12 
international baccalaureate school. And like school that you 
mentioned, it is proving that with a rigorous curriculum that 
is well taught, and a supportive environment, that low income 
kids can and should be doing serious intellectual work when 
they're 17 and 18.
    We hope to help create a dozen more of schools like Idea, 
and its sister school, Uplift, in Dallas. We've committed over 
$50 million creating great high schools in Texas and plan to 
make additional investments. We look forward to working with 
you, this Committee and others in that work.
    Mr. Hinojosa. Thank you.
    Mr. Vander Ark. Let me make a comment about Gear-Up. Gear-
Up provides great services to kids, but it is a set of services 
that ought to be central, not ancillary to high schools. It's 
an add-on, when in fact those college preparatory, guidance and 
academic services ought to be the core, the mission core of 
high schools that we design around, not add-on for some kids.
    So we would be happy to match an effort to try to take 
those services and to help schools implement them. I mean, 
that's really the essence of our Texas State Project with the 
community foundation of Texas, to help schools take that 
college ready goal and rigorous curriculum, and a set of 
guidance services that provide individualized support for kids, 
and to make those services and activities central to the high 
school mission and not an add-on.
    Mr. Hinojosa. But Tom, what's important though in the Gear-
Up programs is that it's not for the middle and upper income 
children.
    Mr. Vander Ark. We only work with low income kids and low 
income schools. So I share----
    Mr. Hinojosa. Well, I just feel that Gear Up has a way of 
including a lot of African Americans and Hispanic children, and 
that's what I like about that.
    And second, I like the fact that they have been 
successfully putting them on to the path of math, science and 
engineering. And the schools that have Gear-Up in Texas that I 
am familiar with. So that answers the problem that we are all 
concerned about, that we don't have the students feeding into 
that pipeline to go to the community college or to the 
university and study engineering, math and science and 
information technology.
    I wish we could talk more.
    Chairman Castle. You can certainly talk more, perhaps after 
this hearing is over. Maybe you want to offer to take them to 
lunch or something of that nature.
    At this time, we would like to welcome Mr. Fattah back to 
the Committee. He was previously on the Committee, he just 
can't seem to stay away. And I offer him the opportunity to 
have a discussion with the witnesses for 5 minutes.
    Mr. Fattah. Thank you. This is actually a pleasure for me, 
because my fondest days here in the Congress were as a Member 
of this Committee. Thank you, Mr. Chairman, and to the ranking 
member.
    And to follow onto this whole dialog about Gear-Up, which 
is what I guess--as the architect for the Gear-Up program, and 
I remember the day we passed it in this Committee--there was 
support on both sides of the aisle. I am happy to report this 
morning that my new Committee, the Appropriations Committee, 
has just marked up the education bill, and notwithstanding 
other recommendations, they have decided to fully fund Gear-Up. 
And this Committee has moved out legislation to re-authorize 
it.
    And I want to use that as the basis for my comment, which 
is that one of the things that I'm suggesting in re-
authorization of Gear-Up is that we allow for early college 
opportunities, which is you know something is happening now 
with many of the Gear-Up programs, but I think that we can do 
even more.
    I know, Tom, that you have been interested in this whole 
issue for a while, and there's important research on it. We've 
done a lot in Philadelphia in this regard. I think it is 
critically important that we in the Gear-Up reauthorization 
look at early college in a way in which it is built on to some 
of the other things that we're doing.
    I do want to ask a question, because I know that you've 
looked at a lot of this around the country, and as I look at 
it, I just want to make sure that I am not missing something. 
Have you found states where in low-achieving schools versus 
high-achieving schools, that children are given the same 
quality teachers, the same access to computers, or similar 
class sizes? Or is it true that in every instance that we see a 
very significant difference between the resource allocations 
between high-achievement and low-achievement schools?
    And if that is so, I guess my point Tom is, is it as 
important as creating--moving through your kind of work 
schedule that you have laid out, which is ambitious, but to 
also point out to the country that part of the difficulty is 
that states seem to have some selective amnesia when it comes 
to how to make schools work.
    They seem to figure out how to make them work in wealthy 
suburban areas, and somehow can't seem to provide the same 
level of resources in rural and urban areas in terms of the 
quality of teachers, the access to educational material, and 
this has been a matter that has been litigated across the 
country, and some 49 states. I know that the foundations are 
doing great work, but I mean if you want to get the systematic 
change across the board, at some level we have to deal with the 
structure of how public education deals low income children in 
rural and urban areas comment by some behind the eight-ball.
    Mr. Vander Ark. It's a difficult issue. It's a great 
question. Our sense is that there are four big policy levers, 
and that we advocate for college-ready standards, for strong 
accountability, for equitable school choice, and for adequate 
and flexible funding.
    That means funding that represents or recognizes the need 
of the children that attend a particular school. And you're 
right, there are big differences within states of the 
distribution of human resources. There are even bigger 
differences within districts.
    Mr. Fattah. Right.
    Mr. Vander Ark. Paul Hill and Marguerite Rosa's recent work 
illustrated that while there are big differences between 
districts within states, it is even more significant within 
districts when you look at high poverty and low poverty 
schools, and the total staff budget that is allocated to those 
places.
    Mr. Fattah. Either in district or in states, shouldn't we 
be talking about a more fair level?
    Mr. Vander Ark. Absolutely.
    Mr. Fattah. This is my point, one the things that may be 
useful for either Carnegie or Gates or someone who's got some 
national scope and some credibility, is maybe do a costing out 
study to say what it would cost----
    Mr. Vander Ark. Right.
    Mr. Fattah [continuing]. To provide an adequate education 
for a child in Philadelphia, Mississippi, or Philadelphia, 
Pennsylvania, or New York City. I mean to kind of get past the 
rhetorical discussion, and to really think about how to lay out 
so that state policymakers or Federal policymakers, or even as 
these matters are being litigated----
    Mr. Vander Ark. Right.
    Mr. Fattah [continuing]. There will be some bases to think 
about what the actual costs might be, because in Texas you can 
go from districts where they spend $4000 per pupil to where 
they are spending $24,000 per pupil. I don't know how you're 
going to end up with a comparable result with that wide a 
disparity.
    Mr. Vander Ark. We launched what I think is the largest 
school finance project ever assembled. It is called the School 
Finance Redesign Project. It's centered at the University of 
Washington. It's a series of 10 linked studies that we hope 
will develop our understanding of how education finance can 
work more efficiently and effectively, and I hope it will begin 
to address this issue of adequate and effective distribution.
    Mr. Fattah. Well, I think it is critically important. 
You've been doing great work and this teacher quality is at the 
top of the list. That's the very essence of it. If you are a 
poor kid in this country, and Carnegie, you financed the 
research that showed that if you get effective teachers, then 
all other things to the contrary--I mean, nothing else matters. 
I mean, the kid will do well. The least likely kid to see a 
qualified teacher in our country is an African American or 
Latino youngster. They can go to high school in any of our 
states, and go through their whole high school year and never 
have a math or science teacher who majored or minored in the 
subject that they're teaching.
    Mr. Vander Ark. Let me go back to your issue of 
distribution of human resources, which is closely tied to 
quality.
    Mr. Fattah. It is also tied to money.
    Mr. Vander Ark. It is.
    Mr. Fattah. Yes.
    Mr. Vander Ark. So this weekend I will be with the Aspen 
urban superintendents and that group of 10 of the leading 
superintendents will have at the top of their list the 
distribution of all of the human resources. So what you pointed 
out is at the top of the list for urban superintendents.
    I just want to point out that it's a difficult, complicated 
problem that is a function of state budgets, of local budgets, 
of state policy and of local employment agreements. It's going 
to take tough work, state-by-state, to help untangle this so 
that we can actually get, for the least advantaged kids in our 
society, access to the highest quality teachers in great 
schools.
    Mr. Fattah. Well, I'm a guest here of the Committee. So I 
won't belabor the point. I do thank you for your work that 
you're doing, and I encourage you as you as you go forward. 
Thank you, Mr. Chairman.
    Chairman Castle. Thank you, Mr. Fattah, you're a welcomed 
guest. We're not going to have a formal second round of 
questions, but Ms. Woolsey did have a couple of things that she 
wanted to state, maybe a question or two, and I want to provide 
her that time.
    Ms. Woolsey. Thank you, Mr. Chairman. And thank you Chaka 
for coming, and if you loved us here so much, why did you leave 
us?
    [Laughter.]
    Ms. Woolsey. But thank you for what you're doing on the 
Appropriations Committee. I mean we authorize and if the 
appropriators don't deliver, we're in trouble. And you deliver. 
Thank you very much.
    You know, I have to tell you, when we talk about adult 
expectations and parental involvement--I raised four kids. My 
baby's 38 and she has three older brothers, so you know I'm 
through raising them in that way. But I have one son that I am 
always using as an example, and someday he's going to realize 
that and tell me to cool it because I talk about him up here a 
lot.
    First of all, when he was in high school, he was an All-
American--well no, he was a really good football player. When 
he was in college, he was an All-American in his junior and 
senior year. So he's a big, good kid. He was always the captain 
of the team. He's a leader. All right.
    He graduated in 1985. A couple of years before that, I 
think he was a junior and we were downtown trying to find 
clothes for him. He's a big man, so it's hard to find clothes 
for them. And I found a shirt and I said, ``Honey''--because I 
always call my kids those things--``Honey, look at this, look 
at this.'' ``Oh. mother, are you kidding? That looks like a 
smart kid's shirt.'' But I said, ``But you're smart.'' ``I 
don't want it--no, no, I'm sorry.'' So now he's a college 
graduate, and he's a very successful young man, a father and he 
provides very well for his children. That was my kid, when it 
wasn't cool to be smart.
    We have such a job ahead of us to make being smart what it 
is supposed to be. Believe me, I get it. But it's parents that 
have to get it. And when we talk about Gear-Up, and we talk 
about--when I talk about girls in science and math, I've got 
legislation called Go-Girl, and what it is about is getting 
parents involved at the very early ages, instead of thinking 
that isn't where their kid should go, and being part of the 
program. That's what Gear-Up does.
    So how do you--because you're doing it right. Are your 
programs set up so that these parents are already engaged so 
that the child can't be part of it? Or are you bringing the 
parents along with the student? Could you help us with that? 
How about you?
    Mr. Henriquez. Yes. I think, as you know from your 
experience with your children that as soon as they are old 
enough to outgrow sitting on your lap, there is a huge 
disconnect between how engaged you can be.
    Ms. Woolsey. And you can imagine how quickly that big guy--
--
    Mr. Henriquez. Especially if you have big kids.
    Ms. Woolsey. But he still sits on my lap, right----
    Mr. Henriquez. This is a problem that we have been looking 
at. I mean, one of the core principles was in the schools and 
society to really try and engage parents into, and to engage 
communities at large but to ensure that their parents are a 
critical piece of the reform effort.
    Ms. Woolsey. Then, how do you do it with parents who aren't 
already educated, I mean?
    Mr. Henriquez. That's exactly right.
    Ms. Woolsey. I was wondering that.
    Mr. Henriquez. One of the things they were working with is 
groups like the National Urban League, who have a number of 
affiliates around the country, and who have tentacles out to 
parent communities to help them understand the work they need 
to do with their older students, that it's not just enough to 
ensure that you're being a good early childhood parent, but 
that you need to be a parent over and over and over again, 
right through 12th grade, and right through college. And even 
when you go out shopping for shirts.
    Ms. Woolsey. Mm-hmm.
    Mr. Henriquez. And even when you go out shopping for 
shirts. But it's something that we're trying to figure out in 
terms of what are the key critical ways in which you can have 
conversations with your students around academic work.
    One of the ways in which--and I have a 15-year-old 
daughter, and I barely see her work. It is not because I'm not 
interested, it's because it's just that age in which students 
really want to be very independent and independent learners. 
And so one of the strategies that we can use as parents and how 
can we use them with students, we're looking at the work at 
Johns Hopkins that Joyce Epstein has done for a number of years 
in terms of looking at how parents and students work together 
and ways that we can support that, not just in early grades, 
but how do we build on that and how do we build on this 
continuum?
    So we hope to have some critical strategies very soon.
    Ms. Woolsey. Thank you. Anybody else? Actually, I believe 
it's because your 15 year-old is a teenager. And I swear that I 
became humble enough to become a Member of Congress after 
raising four teenagers.
    Mr. Vander Ark. All of the new schools that we fund that 
have advisories, it's a system of distributed counseling where 
there is one adult at school that takes responsibility for a 
group of students, usually between 15 and 20 of them. They know 
how they're doing in every class.
    Ms. Woolsey. Mm-hmm.
    Mr. Vander Ark. They help to provide some of the counseling 
at the school. They inform students when it's time to start 
thinking about taking the PSAT and then the SAT. And they do 
some of the college awareness.
    It works a little bit different at every school, but it 
does provide an important conduit for parents so that they 
are--like in elementary school, there's one person you can call 
that knows your son or daughter well, and is up-to-date on how 
they're doing in every subject.
    Ms. Woolsey. One adult?
    Ms. Howard. Another thing that we have found is that we are 
working with parents who may not have been successful in high 
school themselves. And a lot of them don't have a picture of 
what it takes for their student to be successful. So we've 
tried to start in the areas of literacy and we've found that if 
you can sit down with a parent and a student and change the way 
the conversations happen at schools, rather than the parent-
teacher meeting by the teacher sitting in the front of the room 
and 40 parents come in and they say hello, and then you walk 
out and go to the next room.
    We actually, as part of the advisory system, started 
building with these students and parents a clear plan, so that 
we can sit down and the student can say to the parent, ``Mom, 
this is how I am doing in reading now. I am at this reading 
level.'' And the teacher says, ``And this is where the student 
needs to be, and this is our plan for getting them there.'' 
Then we have something specific to talk to those parents about. 
Not a nebulous high school experience, but a very specific 
roadmap for getting from point A to point B.
    Ms. Woolsey. And it could possibly mean that that parent 
would put less pressure on the child for doing extracurricular 
things so that they can study.
    Ms. Howard. Right.
    Ms. Woolsey. OK. I've taken up way more than my time. Thank 
you, Mr. Chairman.
    Chairman Castle. Thank you, Ms. Woolsey. We'll bring the 
hearing to a close.
    I would just like to thank each of you for your perspective 
on what I would consider to be a significant problem, for your 
own personal involvement and engagement, and also for the 
organizations that you represent, which have been very generous 
in terms of what they have done to try to help with this 
problem.
    I, like you, really feel that we're coming to grips with 
this, and I appreciate what NGA has done, I appreciate what 
you're doing, and I feel that we are beginning to make moves in 
the right direction. Hearings like this are important.
    Just so that you know, we are having a series of these 
hearings to try to get our arms around the subject. We don't 
have any legislation prepared. We may never prepare legislation 
on this. But we are vitally interested in what we can do to try 
to push the envelope, as they say.
    So we thank you so much for taking the time to be here and 
for your insight into the problems, and helping all of us 
understanding it better as well.
    And with that, we stand adjourned.
    [Whereupon, at 12 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
